APPENDIX A

Ca^S^l&C^m^MWentlSfiefljnCfiiieSffiOEfleflaMCWa^agaSeoiSf 5

15-2798

VI AN DftTsEr
SUMMARY ORDER
Rulings

by summary order do not have precedential effect . Citation to a summary order
FILED ON OR AFTER JANUARY 1, 2007 , IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
Appellate Procedure 32.1 and this court’s Local Rule 32.1.1. When citing a summary
ORDER IN A DOCUMENT FILED WITH THIS COURT , A PARTY MUST CITE EITHER THE FEDERAL APPENDIX
OR AN ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY ORDER”) . A PARTY CITING A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

1
2
3
4
5
6
7
8
9
10
11

At a stated term of the United States Court of Appeals for
the Second Circuit, held at the Thurgood Marshall United States
Courthouse, 40 Foley Square, in the City of New York, on the
27th day of June, two thousand sixteen.

12
13
14
15
16

SHKELQESA DERVISHI, on behalf of T.D.,
Plaintiff-Appellant,

17
18
19
20
21
22
23
24
25
26

STAMFORD BOARD OF EDUCATION,
Defendant-Appellee.

PRESENT: DENNIS JACOBS,
GUIDO CALABRESI,
REENA RAGGI,
Circuit Judges.
X

15-2798

-v. -

X
FOR APPELLANT:

Shkelqesa Dervishi, pro se,
Stamford, CT.

FOR APPELLEE:

Patrick M. Fayhe, Shipman &
Goodwin, Hartford, CT.

1

MANDATE ISSUED ON 08/04/2016
\

1

1
2
3
4
5
6
7
8
9
10
11
12
13
14
15
16

Appeal from a judgment of the United States District Court
for the District of Connecticut (Eginton, J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED AND
DECREED that the judgment of the district court be AFFIRMED in
part, VACATED in part, and REMANDED for further proceedings.
Shkelqesa Dervishi, pro se, appeals from the judgment of
the United States District Court for the District of Connecticut
(Eginton, J.) affirming an administrative impartial hearing
officer's ("IHO") decision denying her Individuals with
Disabilities Education Act ("IDEA") claims brought on behalf
of her minor autistic son, T.D., against the Stamford Board of
Education ("Board"). We assume the parties' familiarity with
the underlying facts, the procedural history, and the issues
presented for review.

17
18
19
20
21
22
23
24
25
26
27
28

We review de novo the district court's grant of summary
judgment in an IDEA case, recognizing that summary judgment in
this context "involves more than looking into disputed issues
of fact; rather, it is a pragmatic procedural mechanism for
reviewing administrative decisions." M.O. v. N.Y.C. Dep't of
Educ., 793 F.3d 236, 243 (2d Cir. 2015) (internal quotation
marks and citation omitted). Thus, our de novo review seeks
only to independently verify that the administrative record
supports the district court's determination that the
individualized education program ("IEP") was adequate. M.W.
ex rel. S.W. v. N.Y.C. Dept, of Educ., 725 F.3d 131, 138 (2d
Cir. 2013).

29
30
31
32
33
34
35
36
37
38
39

1. The IDEA'S purpose is "to ensure that all children with
disabilities have available to them a free appropriate public
education" ("FAPE") . 20U.S.C. § 1400 (d) (1) (A) . To this end,
the IDEA requires that states provide disabled children a "basic
floor of opportunity" that is likely to benefit the child. T.K.
v, N.Y.C. Dept, of Educ., 810 F.3d 869, 875 (2d Cir. 2016} . The
IDEA'S "principal mechanism" for achieving this is the
individualized education program ("IEP"), which is a "written
document that must include the child's level of performance,
goals for [his] improvement, and a plan about how to achieve
that improvement." Id.

2

1
2
3
4
5
6
7
8
9
10
11
12
13

If a state fails to provide a FAPE to a disabled child, the
parents may elect an alternative placement and seek
reimbursement from the state. Doe v. East Lyme Bd. of Educ.,
790 F.3d 440, 448 (2d Cir. 2015). Tuition reimbursement
entails a three-step inquiry: (i) whether the school district
has complied with the IDEA'S procedural requirements; (ii)
whether the school district has complied with the IDEA'S
substantive requirements, i.e., whether the IEP is reasonably
calculated to enable the child to receive educational benefits;
and (iii) whether the parent's alternative placement is
"appropriate to the child's needs." Id. at 449 (internal
quotation marks omitted). Parents must prevail at all three
steps to receive reimbursement. Id.

14
15
16
17
18
19
20
21
22
23

Procedural errors render an IEP inadequate only if they
"impeded the child's right to a [FAPE]"; "significantly impeded
the parents' opportunity to participate in the decisionmaking
process"; or "caused a deprivation of educational benefits."
20 U.S.C. § 1415(f)(3)(E)(ii). Substantive challenges must
demonstrate that an IEP is not "reasonably calculated to enable
the child to receive educational benefits." Doe, 790 F.3d at
450 (internal quotation marks and citation omitted). We owe
substantial deference to state administrative officers when
considering claims of substantive inadequacy.
Id.

24
25
26
27
28
29
30
31
32
33
34
35
36
37
38
39
40

Dervishi's procedural and substantive challenges to the
2010-2011 IEP fail. The IDEA does not require the parents'
presence at planning and placement team ("PPT") meetings;
rather, it requires only that the school board give parents the
opportunity to participate in the decision about their child's
educational placement. Cerra v. Pawling Cent. Sch. Dist., 427
F.3d 186, 193 (2d Cir. 2005) . The record shows that the Board
gave Dervishi and her husband ample opportunity to so
participate: the parents participated in the first two PPT
meetings, the Board attempted repeatedly to schedule the next
PPT meeting around the parents' summer travel plans, and the
parents attended the fifth (and final) PPT meeting where they
presented an independent evaluation and suggested alternative
placement options. The Board rejected the parents' proposed
alternative placement options, and was within its rights to do
so: "the parent's right of participation is not a right to'veto'
the agency's proposed IEP." Doe, 790 F.3d at 449.
3

1
2
3
4
5
6
7
8
9
10

The 2010-2011 IEP offered T.D. placement at the Roxbury
Elementary School, which had a special education program and
could provide T.D. with the enhanced staffing, occupational
therapy, and speech therapy, all as outlined in his IEP. There
is no basis in the record to reject the IHO's determination that
this combination of placement and services was substantively
appropriate. Because we conclude that the Board provided T.D.
with a FAPE for the 2010-2011 school year, we need not consider
whether the parents' alternate placements were appropriate.
See id.

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29
30
31
32
33

2. The stay-put provision of the IDEA provides that
"during the pendency of any proceedings conducted pursuant to
this section . . . the child shall remain in [his] then-current
educational placement." 20 U.S.C. § 1415 (j). The
"then-current educational placement" is typically: (i) "the
placement described in the child's most recently implemented
IEP"; (ii) "the operative placement actually functioning at the
time when the stay put provision of the IDEA was invoked"; or
(iii) "the placement at the time of the previously implemented
IEP." Mackey ex rel. Thomas M. v. Bd. of Educ. for Arlington
Cent. Sch. Dist., 386 F.3d 158, 163 (2d Cir. 2004) (internal
quotation marks and alterations omitted). The purpose of this
provision is "to maintain the educational status quo while the
parties' dispute is being resolved" and requires that the school
district "continue funding whatever educational placement was
last agreed upon for the child until the relevant administrative
and judicial proceedings are complete." T,M, ex rel. A.M. v.
Cornwall Cent. Sch. Dist., 752 F.3d 145, 152, 171 (2d Cir. 2014) .
A school district is responsible for funding educational
placement during the pendency of a dispute under the IDEA
regardless of whether the case is meritorious or whether the
child would otherwise have a substantive right to that
placement. Doe, 790 F.3d at 453.

34
35
36
37
38
39
40

On November 18, 2010, when Dervishi sought administrative
review, the placement "actually functioning at the time" was
the home program that the school district had agreed to fund
for the previous school year. The Board only agreed to fund
T.D.'s home program on a temporary basis; but, because "the
Board's obligation to fund stay-put placement is rooted in
statute, not contract," the parties' intent as to the duration
4

1
2
3
4
5
6
7
8
9
10
11
12
13

of T.D.'s home program does not alter the Board's reimbursement
obligation under the stay-put provision.
Id.
The district
court erred in concluding that the IEP created in August 2010
constituted the current placement for purposes of the stay-put
obligation because it was never implemented or agreed to by the
parents.
In light of the foregoing, we vacate the district
court's denial of Dervishi's stay-put claim.
On remand, the
district court should (i) calculate the total value of the home
program, as specified in the settlement agreement, for the
period from November 18, 2010 until the dispute over the
2010-2011 IEP is no longer pending, and (ii) order the Board
to pay that amount to Dervishi.
Id. at 457; Bd. of Educ. of
Pawling Cent. Sch. Dist. v. Schutz, 290 F.3d 476, 484 (2002).

14
15
16
17
18
19
20
21
22
23

3.
Dervishi challenges the dismissal of her claim that the
Board breached the parties' 2009 settlement agreement, in which
they agreed on a course of action for T.D. for the 2009-2010
school year. While the IHO did not issue a ruling on this claim,
factual findings were made that doom Dervishi's claim.
The IHO
found that the Board followed the procedure the parties created
for selecting consultants, timely held PPT meetings, acted
reasonably in trying to accommodate the parents, and timely
evaluated and assessed T.D.
There is no basis in the record
to conclude the Board breached the 2009 settlement agreement.

24
25
26
27
28

4.
To determine whether an IHO is biased, courts consider
whether the record shows that the hearing was fair and
impartial.
See, e.q., E.S. ex rel. B.S. v. Katonah-Lewisboro
Sch. Dist., 742 F. Supp. 2d 417, 434-35 {S.D.N.Y. 2010).
The
record is plain: the IHO conducted a fair and impartial hearing.

29
30
31
32

Accordingly, and finding no merit in Dervishi's other
arguments, we hereby AFFIRM in part and VACATE in part the
judgment of the district court, and REMAND for further
proceedings.

33
34

FOR THE COURT:
CATHERINE O'HAGAN WOLFE, CLERK

A True Copy
Catherine O'Hagan Wi

rk

United States Cou lij&t AppeaPSA econd Circuit
J SECONO
» t

5

APPENDIX B

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 1 of 53

UNITED STATES DISTRICT COURT
DISTRICT OP CONNECTICUT
SHKELQESA DERVISHI
CIVIL NO.

3:11CV01018(WWE)

v.
STAMFORD BOARD of EDUCATION

RECOMMENDED RULING
This is a case brought by plaintiff, pro se, on behalf of
her minor autistic son, T.D., against the Stamford Board of
Education ("the Board"). On August 4, 2016, the Court of Appeals
issued a Summary Order affirming the District Court's judgment,
which upheld an administrative hearing officer's decision
denying plaintiff's claims. [Doc. #93]. The Court remanded the
case for a determination of reimbursement due plaintiff for the
home-based education program provided to T.D. during the
pendency of judicial review.1
Evidentiary hearings were held on March 16, 22, and 29,
2017. In support of her application, plaintiff filed the
Affidavit of Shkelqesa Dervishi dated November 21, 2016 with
invoices [Doc. #103, PI. Ex. 4]; and presented the testimony of
Shkelqesa Dervishi, Lucinda Ribeiro, and Dr. Stephanie Bader of
1 On January 12, 2017, Judge Eginton referred this case to the
undersigned for a determination regarding the total value of the
home-based program as specified in the 2009 Settlement Agreement
for the period described above. [Doc. #107].
l

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 2 of 53

the Westchester Institute for Human Development. Defendant filed
a Brief Regarding the Calculation of Total Value of Home Program
[Doc. #100] and a Reply Brief. [Doc. #105]. Dr. Wayne Holland
testified on behalf of the Stamford Board of Education. Posthearing memoranda were filed on May 31, 2017. [Doc. ##141, 142].
FACTUAL BACKGROUND
A. The 2009 Settlement Agreement
On November 6, 2009, the parties entered into a Settlement
Agreement which set forth a plan to have independent consultants
evaluate T.D. and recommend an appropriate program for special
education and related autism services. [Def. Ex. 500]. The
parties agreed to be bound by the recommendations of three
independent evaluators regarding an appropriate special
education program and placement. Id. 51; Hearing Officer's
("H.O.) Dec. at 1, Doc. #81 at 43. In August 2010, an
Individualized Education Plan ("IEP") for T.D. for the 2010-2011
school year was finalized which met all components recommended
by three independent evaluators. [Summary Judgment Ruling Doc.
#89 at 2; H.O. Dec. at 1]. The parents rejected the IEP and
requested a due process administrative hearing on November 18,
2010, seeking reimbursement for their home-based program and
placement of T.D. at the McCarton School. [H.O. Dec. at 1].

2

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 3 of 53

During the implementation of this settlement agreement and
the development of T.D.'s program, the Board had agreed to fund
T.D.'s home-based program. Paragraph 3 of the Agreement states,
The Board agrees to reimburse the Parents in the
amount of $2,500 per week for the cost of speech,
occupational therapy and ABA services and autism
consulting services2 provided to the Student from
September 2009 through the development and
implementation of the Student's IEP (at the January
2010) PPT meeting. It is the parties' agreement that
the Student will be transitioned no later than
February 2010 unless the Independent Consultants
recommend a different time frame provided that the
Student must be transitioned from the home-based
program during the 2009-2010 school year.
2 The term "autism consulting services" was a handwritten
addition to paragraph three of the Agreement. [Def. Ex. 500] .
The Agreement does not define this term; it was added to the
sentence listing the Board's reimbursement obligations. Dr.
Holland was asked to provide his understanding of the term
"autism consulting services" at the hearing. He testified, "it
would be a company or an individual that offers services to
families and children that are on the autism spectrum." [Tr.
3/29/17 444:5-11].
THE COURT: And at the time, do you recall any services
that were specifically identified under the rubric, as
opposed to ABA services for example?
THE WITNESS: No. No I don't. And I bring to your
attention also, your Honor, to the fact that this is
under the category of the unilateral placement. So
this—the language or the type of service would have
been directed to us by the family.
Id. at 444:12-21; Tr. 3/29/17 at 481:12-14 (testifying that the
Board reimbursed plaintiff for evaluations of T.D. that she
initiated; 563:24-564:25 (testifying that reimbursement for
"autism consulting services" was for providers selected by
plaintiff."). For example. Dr. Holland testified that Dr. Carol
Fiorile's services for report writing would be considered
"autism consulting services." Id. at 445:2-19 (referencing PI.
Ex. 1 at 5-6) .
3

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 4 of 53

Reimbursement for payment shall be made within fortyfive ("45") days of the Board's receipt of
documentation of payments (invoices and cancelled
check(s)) made by the Parents for related services
provided to the Student between September 2009 and the
development and implementation of the Student's IEP.
The Board will further reimburse the Parents for their
provision of transportation of the Student to and from
his sessions with service providers from September
2009 through the development and implementation of the
Student's IEP based on the applicable IRS mileage
rate, upon receipt of documentation of the Student's
attendance at these sessions during that period. These
payments are being made in full and final settlement
of all fees, costs and/or damages for any claims
relating to the Student's educational program,
including compensatory education, through the 20092010 school year including the Extended School Year.
In consideration of the above payments the Parents
agree that they will not seek reimbursement for any
additional costs related to the Student's educational
program from the Board in any forum through the 20092010 school year, including the 2010 Extended School
Year. The above payments are expressly conditioned
upon the Parents' continued residence in Stamford and
the Student's continued attendance at the program
selected by the Independent Consultants during the
applicable portion of the 2009-2010 school year.
Id. 53.
B. Summary Judgment Ruling dated August 5, 2015
In a final decision and order dated May 13, 2011, the
Hearing Officer found that the Board offered T.D. an appropriate
IEP for the 2010-2011 school year at a Board school and the
Board's actions during the 2010-11 school year "did not
constitute procedural violations and did not result in a denial
of a free appropriate public education" ("FAPE") to T.D. [H.O.
Dec. at 19]. The Hearing Officer also found that

4

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 5 of 53

Because the IEP offers an appropriate program in the
[least restrictive environment], the Parents are not
entitled to reimbursement for any other placement,
including reimbursement for their home program and/or
the McCarton School, as the IDEA "does not require [a
local educational agency] to pay for the cost of
education, including special education and related
services, of a child with a disability at a private
school or facility if that agency made FAPE available
to the child and the parents elected to place the
child in a private school facility." 34 C.F.R.
§300.403(a) (emphasis added).
[H.O. Dec. at 18].
Plaintiff filed this civil action on behalf of T.D. to
appeal the hearing officer's May 13, 2011 decision, pursuant to
the Individuals with Disabilities Education Act ("IDEA"), 20
U.S.C. §1415, arguing that the 2010-2011 IEP was not appropriate
and that defendant breached the 2009 Settlement Agreement; and
challenging the denial of stay-put reimbursement for the homebased schooling. Judge Eginton granted the School Board's motion
for summary judgment on August 5, 2015. [Doc. #89].
The Court upheld the Hearing Officer's findings that: the
Board complied with the IDEA'S procedural safeguards; the 20102011 IEP was appropriate; and the Board did not breach the 2009
Settlement Agreement. Id. at 12. The Court further found that
the 2009 Settlement Agreement "to reimburse for home-based
education [did] not constitute the prior placement for purposes
of triggering the stay-put obligation" and that the "Board's
contractual duty to reimburse for home-based education ceased

5

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 6 of 53

after the Parents rejected the independent consultants'
recommended IEP for T.D." Id. at 15 (emphasis added). Instead,
the Court found that the "IEP approved by the School Board in
August 2010 constitute[d] the current placement for purposes of
the stay-put obligation." Id.
C. Summary Order dated August 4, 2016
On August 4, 2016, the Appeals Court vacated the District
Court's denial of plaintiff's stay-put claim, finding that on
November 18, 2010, when plaintiff sought "administrative review"
of the 2010-11 IEP, the "placement 'actually functioning at the
time' was the home program that the [Board] had agreed to fund
for the previous year" under the 2009 Settlement Agreement.
[Doc. #93 at 5]. The Appeals Court also found that "the Board
provided T.D. with a FAPE for the 2010-2011 school year" and
found "no basis in the record to conclude the Board breached the
2009 settlement agreement." Id. at 4-5.
On remand, the Court of Appeals directed this Court to "(i)
calculate the total value of the home program, as specified in
the settlement agreement, for the period from November 18, 2010
until the dispute over the 2010-2011 IEP is no longer pending,
and (ii) order the Board to pay that amount to Dervishi."
[Doc. #93 at 5].3

3 The parties agree that the dispute ended with the Appeals
Court's issuance of this Summary Order on August 4, 2016. [Doc.
6

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 7 of 53

D. Legal Defenses
The Board first argues that reimbursement under the 2009
Settlement Agreement is not warranted because "the Parents
refused to enroll the Student in the program selected by the
independent consultant." [Doc. #100 at 5]. This argument was
squarely addressed on appeal. The Appeals Court vacated the
district court's finding on summary judgment that "the School
Board's contractual duty to reimburse for home-based education
ceased after the Parent's rejected the independent consultants'
recommended IEP for T.D." [Doc. #89 at 15]. The Summary Order
states,
On November 18, 2010, when Dervishi sought
administrative review, the placement "actually
functioning at the time" was the home program that
that the school district had agreed to fund for the
previous school year. The Board only agreed to fund
T.D.'s home program on a temporary basis; but, because
"the Board's obligation to fund stay-put placement is
rooted in the statute, not contract," the parties'
intent as to the duration of T.D.'s home program does
not alter the Board's reimbursement obligation under
the stay-put provision.
[Doc. #93 at 4-5]. On remand, the Appeals Court ordered this
Court to "calculate the total value of the home program, as
specified in the settlement agreement." [Doc. #93 at 5].
Accordingly, the Court finds defendant's argument unavailing.

#100 at 4; Doc. #103]. Accordingly, the period for reimbursement
under the stay-put provision of the IDEA is November 18, 2010
through August 4, 2016.
7

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 8 of 53

Similarly, the Court declines to deny plaintiff
reimbursement for time the Board contends is attributable to the
parents' "obstructionist and dilatory actions." [Doc. #100 at 67]. As set forth by the Appeals Court, "[t]he stay-put provision
of the IDEA provides that 'during the pendency of any
proceedings conducted pursuant to this section...the child shall
remain in [his] then-current educational placement. /

//

[Doc. #92

at 4 (quoting 20 U.S.C. §1415(j))1. The Appeals Court further
directed that "[a] school district is responsible for funding
educational placement during the pendency of a dispute under the
IDEA regardless of whether the case is meritorious or whether
the child would otherwise have a substantive right to that
placement." Id. (citing Doe v. E. Lyme Bd. of Educ., 790 F.3d
440, 453 (2d Cir. 2015), cert, denied, 136 S. Ct. 2022, 195 L.
Ed. 2d 218 (2016), reh'q denied, 136 S. Ct. 2546, 195 L. Ed. 2d
882 (2016) ) .
FACTUAL FINDINGS
A. Service Providers
As set forth above, the 2009 Settlement Agreement provided
for limited home-based services because it anticipated that the
Agreement would be effective only until an IEP for the 2010-2011
school year was developed. Plaintiff testified that in October
2010, prior to her filing for a due process hearing, T.D. was

8

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 9 of 53

receiving services from Carol Fiorile, Ph.D.; Lucinda Ribeiro;
Marilena Baldino; and Communication Clinic of Connecticut, LLC.4
1. Home-Based Program as of November 18, 2010
Based on the evidence submitted at the hearing, the Court
awards reimbursement in the amount of $30,222.50 for home-based
services that were in place on November 18, 2010, when plaintiff
requested a due process hearing challenging the 2010-2011 IEP,
and subsequently rendered while the due process challenge was
pending. Plaintiff met the burden of proof, set forth in the 2009
Settlement Agreement,5 by presenting invoices for services and
proof of payment for this amount.

The invoices and proof of

payment showed services provided to T.D. in November 2010 by
Carol Fiorile, Ph.D

• t

in the amount of $885; from November 18,

2010 through June 24, 2011 by Lucinda Ribeiro in the amount of
$21,332,00; from November 23, 2010 through March 8, 2011 by the

40n October 27, 2010, prior to the request for a due process
hearing, Dr. Holland emailed plaintiff stating, in part, that
"without direction from an IEP meeting recommendation I am not
empowered to support your request. Do not send your invoices to
us." [PI. Ex. 31; see also Tr. 3/29/17 at 570:18-19 (Dr. Holland
testified, "[w]e did not pay any invoices once the settlement
agreement ended."); H.O. Dec. at 18 ("Because the IEP offers an
appropriate program in the [least restrictive environment], the
Parents are not entitled to reimbursement for any other
placement, including reimbursement for their home program and/or
the McCarton School....")].
5 The Board correctly asserts that under the 2009 Settlement
Agreement, plaintiff has the burden of presenting "invoices and
cancelled checks" to show that services, as defined under the
Agreement, were rendered. [Doc #100 at 8].
9

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 10 of 53

Communication Clinic of Connecticut, LLC. in the amount of
$1,554; and from November 18, 2010 through March 29, 2011 by
Marilena Baldino in the amount of $6,451.50.
SUMMARY
Service Providers as
of November 18, 2010
$
885.00
Carole Fiorile,
Ph.D.
$21,332.00
Lucinda Ribeiro
Communication Clinic $ 1,554.00
of Connecticut, LLC
$ 6,451.50
Marilena Baldino
TOTAL

$30,222.50

2. Service Providers Hired After November 18, 2010
Plaintiff also seeks reimbursement for therapy from Dr.
Stephanie Bader and various YMCA programs in 2015 and 2016. She
would be entitled to reimbursement for these services if they
are substantially similar to the services being rendered at the
time the due process challenge was filed, that is within the
scope of the "home program that the [Board] had agreed to fund
for the previous year." [Doc. #93 at 5].
a. Stephanie Bader, Ph.D., Westchester Institute Human
Development-December 2015-March 2016
Defendant contends this was not a reimbursable service
specified in the 2009 Settlement Agreement, so reimbursement
should be denied. [Doc. #141 at 9; Tr. 3/29/17 at 437:14-17 (Dr.
Holland testifying that at no point did the Board agree to pay
for services related to family therapy)3.

10

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 11 of 53

The Court agrees. Plaintiff testified that when T.D. turned
17 years old, she sought counseling to address his behavioral
issues in a total of five sessions, from December 21, 2015
through March 7, 2016. [PI. Ex. 1 at 12-20]. Plaintiff provided
proof of payment for four sessions totaling $740. [PI. Ex. 1 at
14, 16, 18, 20]. Mrs. Dervishi testified that she participated
in the counseling sessions with her son. Plaintiff has not
demonstrated that this type of expense was paid by the Board
during the 2009-2010 school year and this service is not
included in the services listed at paragraph 3 in the 2009
Settlement Agreement. See Tr. 3/16/17 at 96:20-22, 98:16-22; Tr.
3/22/17 at 252:15-18, 253:24-254:4. Dr. Bader testified that she
provided family therapy6 to Mrs. Dervishi and T.D., which

6 Dr. Bader explained that
sometimes terminology is a little bit confusing, but
the family therapy billing code is typically the
billing code that I use working with the clients that
I work with, given that they're usually lower
functioning and usually the families have to be
involved. The difference of the billings between
family therapy and psychotherapy is honestly whether
or not the parent or family is actually in the session
room, and whether or not we're talking about skills
that the family can work with, too.
Tr. 3/22/17 at 254:13-24. She continued, "[s]o was it ABA
services in terms of the - home-based programming and teaching
academic skills in a certain strategic manner? No, but was it
kind of the broader sense of applied behavior analysis in how we
affect change and how we can address behavior? Yes." Id. at
256:9-14.
11

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 12 of 53

consisted of offering Mrs. Dervishi skills to manage T.D.'s
behavioral issues, coaching/teaching compliance with taking
directions, completing tasks and addressing difficulties with
personal boundaries.7 Tr. 3/22/17 at 244:21-245:3, 246:6-17,
247:14-20, 250:24-252:11, 253:10-13.
Accordingly, the request for reimbursement of costs for
services provided by Dr. Stephanie Bader at Westchester
Institute for Human Development in 2015-2016 is DENIED.8

7 On recross examination, defendant asked,
Dr. Bader, if I understand your testimony just
Q.
then, you worked with T.D. and Mrs. Dervishi to
provide family therapy. Right?
A.

Correct.

And you worked with coaching Mrs. Dervishi on how
Q.
to provide direction to T.D. is that right?
A.

Correct.

And if I heard you correctly, you were training
Q.
her as a parent on how to deal with a child with a
disability, a special education student, for example.
Is that correct?
A.

Correct.

You weren't training her as a therapist in any
Q.
way?
A.

No.

Tr. 3/22/17 at 259:22-260:12; see also id. at 257:11-258:1.
8The Court has considered whether Dr. Bader's services might be
reimbursable under the rubric, "autism consulting services."
However, based on the record at the hearing, the kind of
12

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 13 of 53

b. YMCA Fall 2015-July 2016
Defendant contends this is not a reimbursable service set
forth in the 2009 Settlement Agreement and reimbursement should
be denied. [Doc. #141 at 10; Tr. 3/29/17 at 438:4-10 {Dr.
Holland testifying that at no point did the Board agree to pay
for services at the YMCA)].
The Court agrees. Plaintiff testified that the Board did not
pay for this expense during the 2009-2010 school year and this
service is not included in the listed services at paragraph 3 in
the 2009 Settlement Agreement. See Tr. 3/16/17 at 54:16-22,
64:21-25, 94:11-15. Plaintiff offered no evidence that services
from the YMCA were paid for by Stamford at any time and no
explanation of how they came within the scope of the program
described in the Settlement Agreement. Accordingly, the request
for reimbursement of costs and the provision of transportation
associated with the YMCA programs in 2015-2016 is DENIED.
B. Transportation
Plaintiff seeks reimbursement of transportation expenses at
the applicable IRS standard business mileage rate from July 3,

coaching therapy Dr. Bader described was different from the
evaluative and oversight services provided by Dr. Fiorile, for
example. Designing an educational program for T.D. and reporting
on his progress, as witnesses testified Dr. Fiorile did, seems
quite distinct from the family therapy Dr. Bader undertook.
13

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 14 of 53

2010 through December 31, 2016, in the amount of $10,419.9 [Pi.
Ex. 2]. To the extent that Mrs. Dervishi seeks reimbursement for
her time to transport T.D. to services, the request is denied.
[Doc. #142 at 2 (seeking compensation "for the value of my time
in performing the transportation function under pendency."); Tr.
3/16/17 at 105:5-108:23 (seeking compensation for time
transporting and staying at appointments with providers); Tr.
3/16/17 at 113:12-24 (plaintiff conceding that the 2009
Settlement Agreement does not provide for compensation for her
time transporting T.D. to services); see A.S. v. Harrison
Township Bd. of Educ., Civil No. 14-147 (NLH/KMW), 2016 WL
1717578, at *5 (D.N.J. Apr. 29, 2016) (declining to award
minimum wage for time spent transporting child to school); Ruby
v. Jefferson Cty. Bd. of Educ
Ala. 2015)

• t

122 F. Supp. 3d 1288, 1308 (N.D.

("[Plaintiff] is entitled to costs, not wages. The

court concludes that Defendant did not deny Plaintiff a FAPE by
offering her only the costs associated with transporting L.L. to
and from [school], and not the costs that Defendant would have

9 Plaintiff seeks reimbursement at the IRS standard business
mileage rate, as specified in the Settlement Agreement. [PI. Ex.
2 at 2]. See A.S. v. Harrison Township Bd. of Educ., 2016 WL
1717578, at *6 ("calculat[ing] IDEA mileage reimbursement using
the IRS standard business mileage rate at the time the mileage
expenses were incurred.")(citing cases). The business mileage
rate in: 2010 was 50 cents per mile; 2011 was 51 cents per mile;
2012 was 55.5 cents per mile; 2013 was 56.5 cents per mile; 2014
was 56 cents per mile; 2015 was 57.5 cents per mile; and 2016
was 54 cents per mile. See https://www.irs.gov/uac/newsroom
14

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 15 of 53

had to pay an employee in her stead."). Plaintiff is entitled to
reimbursement for the actual costs of transportation at the IRS
standard business mileage rate.
a. Communication Clinic of Connecticut, LLC
Plaintiff seeks reimbursement for transportation to the
Communication Clinic of Connecticut, LLC from November 23, 2010
through March 8, 2011. [PI. Ex. PI. Ex. 1 at 50-59]. Roundtrip
mileage from T.D.'s home to Communication Clinic of Connecticut,
LLC is 36.9 miles.10 [PI. Ex. 2 at 6-7]. Plaintiff transported
T.D. to Communication Clinic of Connecticut six (6) times in
2010 or 221.4 miles and four (4) times in 2011 or 147.6 miles.
[PI. Ex. 1 at 50-59]. The Court awards reimbursement for 2010 in
the amount of $110 [221.4 miles at 50 cents/mile] and for 2011
in the amount of $75.27 [147.6 miles at 51 cents/mile] totaling
$185.27.
b. Fairfield Rehabilitation Associates, Inc.
Plaintiff seeks reimbursement for transportation to
Fairfield Rehabilitation Associates from March 25, 2011 through
December 16, 2013. [PI. Ex. 2 at 10-64]. Roundtrip mileage from

10 Communication Clinic of Connecticut, LLC is located at 137
Ethan Allen Highway, Ridgefield, CT. Plaintiff submitted a
mileage claim of 18.3 and 18.6, as measured by Google Maps, from
T.D.'s residence to Communication Clinic of Connecticut, LLC.,
or 36.9 miles round trip. [PI. Ex. 2 at 6-7],

15

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 16 of 53

T.D.'s home to Fairfield Rehabilitation Associates is 39.8
miles.11 [PI. Ex. 2 at 8-9; PI. Ex. 39]. Plaintiff transported
T.D. to Fairfield Rehabilitation Associates forty-seven (47)
times in 2011 [PI. Ex. 2 at 10-18]; one hundred, forty-two (142)
times in 2012 [PI. Ex. 2 18-47]; and one hundred and eight (108)
times in 2013. [PI. Ex. 2 47-64]. The Court awards reimbursement
for 2011 in the amount of $954 [1,870.6 miles at 51 cents/mile];
for 2012 in the amount of $3,136.63 [5,651 miles at 55.5
cents/mile]; and for 2013 in the amount of $2,428.59 [4,298.4
miles at 56.5 cents/mile] totaling $6,519.22.
c. Greenwich Education and Prep., LLC
Plaintiff seeks reimbursement for transportation to
services provided at Greenwich Education and Prep., LLC,

(also

referred to as the Pinnacle School), for twenty (20) days from
April 3, 2013 through May 8, 2013.12 [PI. Ex. 21 at 1-3; PI. Ex.

11 Fairfield Rehabilitation Associates, Inc. is located at 1931
Black Rock Turnpike, Fairfield, CT. Plaintiff submitted a
mileage claim of 19.8 and 20 miles, as measured by Google Maps,
from T.D.'s residence to Fairfield Rehabilitation Associates,
Inc., or 39.8 miles round trip. [PI. Ex. 39 at 1],
12 Plaintiff attended Greenwich Education and Prep., LLC for
twenty (20) days on April 3, 8, 9, 10, 11, 15, 16, 17, 18, 22,
23, 24, 25, 29, 30 and May 1, 2, 6, 7, and 8, 2013. [Pi. Ex. 40
at 4]. Plaintiff also testified that she withdrew T.D. from the
program on May 8, 2013. [Tr. 3/16/17 at 165:12, 171:2; Tr.
3/22/17 at 277:7-10, 351:7-8, 366:4-5]. There is also an email
dated Tuesday, May 14, 2013, from Alisa Dror of Greenwich
Education and Prep., LLC, stating that she received an email
from Mrs. Dervishi withdrawing T.D. from the school. [Pi. Ex.
16

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 17 of 53

40 at 4]. Roundtrip mileage from T.D.'s home to Greenwich
Education and Prep., LLC is 7.6 miles.13 [PI. Ex. 2 at 8-9; Ex.
40 at 3]. Plaintiff transported T.D. to Greenwich Education and
Prep., LLC for services twenty (20) times in 2013 or 152 miles.
[PI. Ex. 21 at 1-3; PI. Ex. 40 at 4]. The Court awards
reimbursement in the amount of $85.88 [152 miles at 56.5
cents/mile].

SUMMARY
Transportation
Reimbursement
185.27
Communication Clinic $
of Connecticut, LLC
$ 6,519.22
Fairfield
Rehabilitation
Associates, Inc.
85.88
Greenwich Education
$
and Prep, LLC
TOTAL

$ 6,790.37

45, 47]. On rebuttal, plaintiff asserted that T.D. attended this
program through May 14, 2013. Compare Pi. Ex. 40 at 4 with Doc.
#132 at 562. Greenwich Education and Prep., LLC services were
paid for by the City of Stamford. [PI. Ex. 21 at 4-6]. Dr.
Holland testified that T.D. attended the program through June
20, 2013. Tr. 3/29/17 at 434:15; Def. Ex. 521.
13 Greenwich Education and Prep., LLC, also referred to as
Pinnacle School, is located at 44 Commerce Road, Stamford, CT.
Plaintiff submitted a mileage claim of 3.8, as measured by
Google Maps, from T.D.'s residence to Greenwich Education and
Prep., LLC, or 7.6 miles round trip. [Pi. Ex. 40 at 3].

17

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 18 of 53

C. Mrs. Shkelqesa Dervishi
Plaintiff seeks an award of $435,350 for the home-based
program she says she provided to T.D. from November 18, 2010
through August 4, 2016. [PI. Ex. 4, 4A (seeking payment for
7,026 hours at $50-$70 per hour from 2010 through September
2016)]. She contends that she was subsequently forced to
discontinue the professional services that were in place at the
time she requested due process and provide home-based
programming because the Board refused to reimburse her for
professional services and she was financially unable to continue
to pay the providers.14
The Board argues that the 2009 Settlement Agreement only
contemplated reimbursement "in the amount of $2,500 per week for
the cost of speech, occupational therapy [] ABA services and
autism consulting services" that were provided. [Def. Ex. 500 f3
(emphasis added)]. Defendant contends that the "home based
program" for services was defined in the 2009 Settlement
Agreement and it makes no mention of services provided by T.D.'s
mother. [Doc. #141 at 11 (citing Tr. 3/16/17 at 111:20-24)

("In

fact, the plaintiff conceded that the settlement agreement

1A Dr. Fiorile did not provide services after November 2010. [PI.
Ex. 1 at 3-6]. Ms. Fera of Communication Clinic of Connecticut,
LLC. did not provide services after March 8, 2011. [PI. Ex. 1 at
59]. Ms. Baldino's last service date was March 29, 2011. [PI.
Ex. 1 at 69]. The last date of service for Ms. Ribeiro is June
24, 2011. [PI. Ex. 1 at 49].
18

4

„ I

* i } s'.

* U l*1 **

,

^

. t• d

It /

* ‘1* * ’/IS.Q fc»3Cp/Ojtiiti

u95L4<*«ac»ff

. 44?^ . '

/»t xui 0Tv_,<?€£<• In c*36W*> -t*, e>:.t#3

CiOS ».aj. j'vd^i-n'O/i 'O/i .Q.T 0: hqbivoxq p/12 z\&e
tdI

:,t

.nisrrrycq pnb?l'*?l A*

,?

*nc ^jpo^q

fj:3 .191 .aid ^ ^-X'pjA IpLOitli

:tou;i?$:*C{«fC rfpo^srit OIOS t::ii ic-v* ieq jv'^-0^0 *'» sx^orf &S0,7
bdoxol yl Jfhoopssdus uiw site j*v* abas .too:.' 3rt2 , [' )I0S
d‘d „*t sb«Jq a\ axet' 4*»i ♦ ooivx' 3 ;*ncu$co4o:cg
cssod-sricr sbivosq b-T~ -sxeocxq >jq b^tejupst srta sail*
Toi xou bSiulaUxo. OX b*a?-kf re1 • t**od *>&J *i ?!hrji?di -n jiin&'tp&xq
©i/nxt«jcr, 03 vldanu ii

frrfs bn& i-O^X/i^a JxnotBso^oaq
^.oxebi'sxa

yl.qo XTT^TnasxpA JuarosM *4y2 *0 •<
xol tfocv/ xoq 00c

y«q net
rtf

-n't 4fid,t «^£fpjo' fcxe»o9

’lo' 3aucr%.-> o*i4 ai* ir.t*u0rt 1 ucfoibi>06xqxipanon
t

tP6 a»oivx^$ AHA [', yqsx^n
£.? OCd .WS .loO;

icquooo ,te3t»qa in Jnco sd*

.b^fcj-voxq ^>xow 4*.Jj "cs*3j.*^^b ptriilusnoa maJrcc

jooaqd <»‘jio'1v snl U*ii *dk&^oc. +dcbaoXsQ . J (b*bbt* a^csdoiio)
XqomjiiXo^ ?OO0 jvt *l. birua$b ^gv.

3t>.

s'.C,^ yd bsbivov? coDxvxeB :jo notinsm oq *#jfAri ti bnc xrecrexpA

ni*> {>S-0£!t£I x<? *'£\dr\i .xV %ia +to) It j£ £&!> . ooGj
odx xcr.X oetopcon

. xe-dtern

9til 4Xyti

. i'JJ . . tOS a^dmovoM X90xx> xcfivjeti eb^ vo+q XOi.h^j pa ircci’i .3C
^PU-oiXo^nucO. 1c ainiXO ..cx Jfe^x.Jdat.ioO ip. •eaal- .3ft.[d~€ Xx X .Xi
Jb i .X? . £*31 .iiOS
«sorviee ^bi4*caq Ton ,oix.- *V»IJ
j
.JH] .lies 10S ribJtfcM 8£% fi46»
43.61. B V>nIbIcQ . xM ♦ •a5
v ’
e.it.'O u pxx'jmxA . ssM x-'i e-i /iy; io
3c^I *rtf .
4^ * ,xi. {:•&. jc 1 ./.j ,x«i;
j K
■!i

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 19 of 53

contains no provision that the Board would pay for her time for
providing services to the Student.");

{citing Tr. 3/29/17 at 439

(Dr. Holland testifying, "we will not reimburse unless ordered
by the Court for services provided by a parent.")].
The Court finds that Mrs. Dervishi is not entitled to
payment for providing her own services to T.D.
1. Qualified Personnel
It is undisputed that Mrs. Dervishi is not "qualified" to
provide services as defined by the IDEA and its regulations.15

15 The IDEA defines "qualified personnel" as
(i) special educators;
(ii) speech-language pathologists and audiologists;
(iii) occupational therapists;
(iv) physical therapists;
(v) psychologists;
(vi) social workers;
(vii) nurses;
(viii) registered dietitians;
(ix) family therapists;
(x) vision specialists, including ophthalmologists and
optometrists;
(xi) orientation and mobility specialists; and
(xii) pediatricians and other physicians
20 U.S.C. §1432(4)(F); see 20 U.S.C. §1401(26)(A) ("The term
"related services" means transportation, and such developmental,
corrective, and other supportive services (including speechlanguage pathology and audiology services, interpreting
services, psychological services, physical and occupational
therapy, recreation, including therapeutic recreation, social
work services, school nurse services designed to enable a child
with a disability to receive a free appropriate public education
as described in the individualized education program of the
child, counseling services, including rehabilitation counseling,
orientation and mobility services, and medical services, except
that such medical services shall be for diagnostic and
evaluation purposes only) as may be required to assist a child
with a disability to benefit from special education, and
19

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 20 of 53

She does not hold a degree in education or special education and
she is not licensed or certified as a Board Certified Behavior
Analyst ("BCBA"), or in the provision of Applied Behavior
Analysis ("ABA") services.16 [Tr. 3/22/17 at 313:13-14
(testifying "I know I'm not, you know, licensed as an ABA
therapist[.]"), 334:5-15 (testifying she visited websites,
stayed in touch with former service providers, sought assistance
from her sister who "had been a special ed teacher in my country
working with special needs...."); 334:5-15 (testifying she also
visited other school programs), 371:11-374:6 (discussing
credentials); see 34 C.F.R. §303.31 ("Qualified personnel means
personnel who have met State approved or recognized
certification, licensing, registration, or other comparable
requirements that apply to the areas in which the individuals
are conducting evaluations or assessments or providing early
intervention services."); see Conn. Gen. Stat. §10-76ii (as of
June 15, 2012, the State requires certification to provide ABA
services to special education children)]. Mrs. Dervishi contends
that the Board was "aware of [her] qualification [that she]

includes the early identification and assessment of disabling
conditions in children.").
16 Plaintiff submitted a letter dated April 12, 2017, from The
Autism Treatment Center of America, confirming that Mrs.
Dervishi attended a thirty-five hour training course, "The SonRises Program Start-Up," during the week of September 19 through
24, 2004. [Doc. #132, Ex. 53].
20

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 21 of 53

received through the high qualified experts and therapist [she]
had home for years as from Dr. Fiori[le]...and Lucy
Rib [i] ero. . . . " [Doc. #132 SI68] .
However, Dr. Fiorile did not testify at the hearing and Ms.
Ribeiro testified that she did not formally oversee and/or
monitor the provision of ABA services by plaintiff after Dr.
Fiorile stopped working with T.D. in June 2011. [Tr. 3/22/17 at
187:6-10, 195:9-18 (Ribeiro testifying that the BCBA [Board
Certified Behavior Analyst], Dr. Fiorile, provided T.D.'s
progress reports to the District); 210:7-16 (Ribeiro testifying
that T.D's home-based program was created by Dr. Fiorile);
213:10-19 (Ribeiro testifying that she graphed T.D.'s ABA
progress data and during 2010-2011, she "did not know if there
was any reporting to the district" because Dr. Fiorile wrote the
progress reports); 220:4-10 (Ribeiro testifying that the ABA
program was prepared by Dr. Fiorile); 221:11 (Ribeiro testifying
that during 2010-11 she worked without supervision); 225:2-16
(Ribeiro testifying that she did not graph T.D.'s ABA
programming after June 2011), 239:4-24 (Ribeiro testifying she
would not be comfortable with Mrs. Dervishi providing ABA
services without supervision)].
Ms. Ribeiro testified that Dr. Fiorile, who is a BCBA,
developed the home-based program for T.D. which included
programming and supervision through November 2010. See Tr.
21

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 22 of 53

3/22/17 at 377:2-3. Thereafter, Ms. Ribeiro and Mrs. Dervishi
provided home-based services without any oversight or
supervision of the programming. Dr. Fiorile's last invoice is
dated November 2010 and Ms. Ribeiro's last invoice is dated June
24, 2011. [PI. Ex. 1 at 3-6; 21-49].
Ms. Ribeiro provided no further services, programming,
support or supervision after June 2011.17 [Tr. 3/22/17 at 222:2125, 223:5-8, 224:8-225:1]. Mrs. Dervishi has not shown that T.D.
received any oversight from a BCBA or ABA therapist or other
education professional after June 2011.18 See Tr. 3/22/17 at

17 Plaintiff also asserted that she was "supervised and got
feedback" from Dr. Bader. However, Mrs. Dervishi and T.D. met
with Dr. Bader on only five occasions in the context of family
therapy to address her son's behavioral problems, [Tr. 3/16/17
at 10:11-15, 48:20-21, 48:25-49:1; PI. Ex. 1 at 12-13, 15, 17,
19]. Dr. Bader's testimony does not support plaintiff's
contention that the home-based services she provided to her son
were supervised by the doctor. Tr. 3/22/17 at 257:11-258:1 (Dr.
Bader testifying, "I would say I had trained you to be a mother
of a child with special needs. I mean, children with special
needs require parents to take on a little bit of a different
role in terms of using every opportunity as a learning
opportunity. So I didn't specifically train you to be, like, a
therapist to be able to do, like, home-based [therapy] services.
But I worked with you so that you could work with your son to
build up his skills."), 260:10-12 ("You weren't training her as
a therapist in any way? No.").
Similarly, plaintiff provided no evidence that after
November 2010 Dr. Fiorile provided consulting services,
developed ABA programming, certified that T.D. mastered ABA
programs, or communicated with the Board. [Tr. 3/16/17 at 24:1925:2; 35:8-12].
18 In contrast, in Bucks County Dept, of Mental Health/Mental
Retardation v. Commonwealth of Pa., 379 F.3d 61, 63 (3d Cir.
2004), the mother seeking reimbursement was trained by a Lovaas22

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 23 of 53

335:8-12 (plaintiff testified that "in order to develop an ABA
program we need a BCBA to be a member of the PPT. We need an ABA
to be a member of the PPT, or a social work [who] can read a
psychologist evaluation at a PPT.").
It is also undisputed that Dr. Fiorile, Lucinda Ribeiro,
Communication Clinic of Connecticut, LLC, and Marilena Baldino
are "qualified providers" under 20 U.S.C. §1432(4)(F); 34 C.F.R.
§303.31. Here, the Board offered T.D. a FAPE for the 2010-2011
school year. When plaintiff challenged the 2010-2011 IEP, the
pendency services in place were being obtained from these

trained therapist to provide in-home therapy to her child. Since
the therapist was not available to provide as many hours with
the child as needed, she trained the mother in the methodology
to provide additional hours per week. Evidence of the mother's
training included testimony from the Early Intervention
Coordinator at Bucks County, specific examples of training
exercises the mother executed with her child, and affidavits
from therapists confirming that the mother was acting as a
Lovaas therapist, not as a mother, when working with the child.
Id. Importantly, the Lovaas-trained therapist continued to work
with the child during the entire period of reimbursement and
provided oversight. See Id. at n.3. The holding in Bucks County
is narrow. The Third Circuit Court of Appeals held "that under
the particular circumstances of this case, where a trained
service provider is not available and the parent stepped in to
learn and perform the duties of a trained service provider,
reimbursing the parent for her time spent in providing therapy
is 'appropriate' relief." Id. at 63.
It is further noted that Bucks County also argued that the
Lovaas therapist was not qualified to train the mother and the
therapist did not develop a written curriculum to document the
program or create daily logs or records to document the child's
successes. The Court rejected this argument as a challenge to
the appropriateness of the Lovaas training which had already
been adjudicated by the lower court and Bucks County failed to
appeal those findings. Id. at n.8.
23

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 24 of 53

qualified providers, not Mrs. Dervishi. Mrs. Dervishi, who is
not a "qualified provider" under the IDEA, is not entitled to
payment for services she substituted for those that had been
offered by qualified providers under the Settlement Agreement.
Nor should the Board be required to pay costs incurred by
the parents' decision to discontinue the qualified private
services that were in place under the Settlement Agreement.
Here, although the services covered by the settlement agreement
were limited (because it was expected to be of short duration),
the parents' decision to keep T.D. out of school while they
sought due process expanded only the duration of the services,
not their scope.
[P]arents who unilaterally change their child's
placement during the pendency of review proceedings,
without the consent of state or local school
officials, do so at their own financial risk. If the
courts ultimately determine that the IEP proposed by
the school officials was appropriate, the parents
would be barred from obtaining reimbursement for any
interim period in which their child's placement
violated §1415 [ (j) ] .19
School Comm, of the Town of Burlington, Mass, v. Dept, of Educ.,
471 U.S. 359, 373-74 (1985); see T.M. ex rel. A.M. v. Cornwall
Cent. School Dist., 752 F.3d 145, 172 (2d Cir. 2014)(finding

19 Section 1415(j) states that "during the pendency of any
proceedings conducted pursuant to this section, unless the State
or local educational agency and the parents otherwise agree, the
child shall remain in the then-current educational placement of
the child . . . ." 20 U.S.C. §1415(j).
24

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 25 of 53

that the School District satisfied its duties under 20 U.S.C.
§1415(j) by reimbursing the "parents for the amount they spent
on [the child's] pendency services in the 2010-2011 year, and by
offering to provide the required pendency services directly from
that point onwards. When T.M.'s parents rejected Cornwall's
offer to provide pendency services directly for the 2011-12
year, they took responsibility for the cost of obtaining those
services from private providers.").
The record shows that none of the professionals who
evaluated T.D. recommended a home-based program provided by his
parents. [PI. Ex. 56 (2012 language and speech evaluation by
Josephine K. Chen, M.S., CCC, recommending "intensive clinical
intervention" in an educational setting.); PI. Ex. 32 (August
2013 psychoeducational evaluation by Dr. Erik Mayville
recommending a full-day, 12-month ABA-based educational program,
including a residential program if acceptable to the family. "A
BCBA should ensure that the program is supported at all times by
technical expertise in ABA.")].
Although plaintiff contends that "[t]he family provided the
same program and services to T.D. till the pendency was over,"
the record shows that qualified services with Dr. Fiorile,
Lucinda Ribeiro, Communication Clinic of Connecticut, LLC and
Marilena Baldino, were discontinued in 2011 and no qualified
education specialist was supervising T.D.'s program thereafter.
25

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 26 of 53

[Doc. #132 58]. The Court cannot find that Mrs. Dervishi
provided the "same program and services" as the professionals
did during the pendency stay-put. Plaintiff's equivalency
argument is not supported by the record.
Plaintiff's reliance on Bucks County Dept, of Mental
Health/Mental Retardation v. Commonwealth of Pa. in support of
her claim for reimbursement is distinguishable on its facts.20
379 F.3d 61 (3d. Cir. 2004). In Bucks County, the school
district refused to provide Lovaas, an ABA therapy, to the child
in question. The parents of the student paid to provide Lovass
therapy. Id. at 63.

Because the Lovaas-trained therapist was

not able to spend as many hours with the child as needed, and
because the parent was unable to find another person trained in
the Lovaas method, the parent was trained in the method and
coached by the therapist to provide additional therapeutic
hours. Id. The Commonwealth Court of Pennsylvania determined
that the individualized family service plan ("IFSP") was not
appropriate and it also determined that the private training was

20 Plaintiff provided additional cases for the Court's
consideration on March 15, 2017. Student X v. New York City
Dept, of Educ., No. 07-CV-2316 (NGG)(RER), 2008 WL 4890440
(E.D.N.Y. Oct. 30, 2008); Hurry v. Jones, 734 F.2d 879 (1st Cir.
1984); M.R. v. Ridley School District, 744 F.3d 112 (3d Cir.
2014); R.E. v. New York City Dept, of Educ., 694 F.3d 167 (2d
Cir. 2012); Frank G. v. Board of Educ. of Hyde Park, 459 F.3d
356 (2d Cir. 2006); Board of Educ. of the Pawling Central School
Dist. v. Schutz, 290 F.3d 476 (2d Cir. 2002).
26

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 27 of 53

appropriate. Id. at 67. Bucks County did not appeal the
decision. Id.

A hearing officer awarded the parents both their

out-of-pocket expenses and money for their time and effort. Id.
at 64-65.
The Third Circuit affirmed the hearing officer's award,
noting that, "[r]eimbursing parents for the time and services
necessary for their child when there has been an IDEA violation,
is not unheard of." Id. at 69 {emphasis added).

In approving

reimbursement to the parent, the Court found that there was
"ample evidence in the record to support the conclusion that
[the mother] stepped into the shoes of a therapist" and the
Hearing Officer found that the mother was a "trial training
provider." Id. at 73 and 63 (finding that the therapist trained
and coached the mother in one-on-one workshops; the mother read
and learned discrete training teaching guidelines and books on
the Lovaas methodology; the "Early Intervention Coordinator at
Bucks County testified at the due process hearing that, in her
opinion, [the mother] was qualified to train [the child]"; the
mother testified to specific examples of training exercises she
executed when training her child; and the child's "therapists
provided affidavits confirming that [the mother] was acting as a
Lovaas therapist, not as a mother, when she was working with
[her child]."). As such, the Court "was required to defer to
this finding unless it could point to contrary nontestimonial
27

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 28 of 53

extrinsic evidence." Id. at 73. The Appeals Court found there
was no "contrary nontestimonial extrinsic evidence in the
record" to "compel a different finding." Id.
Importantly, the IDEA'S

stay-put rule,'

serves "in essence, as an automatic preliminary
injunction," Drinker [by Drinker v. Colonial School
Dist. , 78 F.3d [859,] 864 [(3d Cir. 1996)], reflecting
Congress's conclusion that a child with a disability
is best served by maintaining her educational status
quo until the disagreement over her IEP is resolved,
Pardini v. Allegheny Interm. Unit, 420 F.3d 181, 190
(3d Cir. 2005); Drinker, 78 F.3d at 864. " > Once a
court ascertains the student's current educational
placement, the movants are entitled to an order
[maintaining that placement] without satisfaction of
the usual prerequisites to injunctive relief.' "
Drinker, 78 F.3d at 864 (quoting Woods v. N.J. Dep't
of Educ., No. 93-5123, 20 Indiv. Disabilities Educ. L.
Rep. (LRP Publications) 439, 440 (3d Cir. Sept. 17,
1993)); see also Pardini, 420 F.3d at 188 ("Congress
has already balanced the competing harms as well as
the competing equities"); Zvi D. v. Ambach, 694 F.2d
904, 906 (2d Cir. 1982) ("The statute substitutes an
absolute rule in favor of the status quo for the
court's discretionary consideration of the factors
♦

♦

«

♦

/

♦

M.R. v. Ridley Sch. Dist., 744 F.3d 112, 118 (3d Cir. 2014).
Here, the Court of Appeals found that T.D.'s "then-current
educational placement" when Dervishi sought a due process
hearing was the home-based service program in place under the
2009 Settlement Agreement.
In Bucks County, the "reimbursement" remedy was based upon
the determination that the individualized family service plan
("IFSP") was "not 'appropriate' because [the child] was not

28

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 29 of 53

making meaningful progress toward her IFSP goals" and that the
parent's private Lovass therapy was appropriate. Id. 379 F.3d at
67; see also, School Comm, of the Town of Burlington, Mass, v.
Dept, of Educ. of Mass., 471 U.S. 359, 370 (1985){holding that
reimbursing parents for expenses incurred from placing their
child in private school is "appropriate" relief when a court has
found that the public school placement was inappropriate and
that the parents' private placement was appropriate). Notably in
each of the cases cited by the Court in Bucks County in support
of reimbursement to parents for time and services, there was a
finding of an IDEA violation. 379 F.3d at 69 (citing Hurry v.
Jones, 734 F.2d 879 (1984)21; Straube v. Florida Union Free Sch.
Dist., 801 F. Supp. 1164, 1182 (S.D.N.Y. 1992)("The value of
contributed parental services may be considered as damages only
when those efforts were made in providing services to which the
child was entitled as a matter of law.")).

21 C.f. A.S. v. Harrison Twp. Bd. of Educ., No. 14-147 (NLH/KMW),
2016 WL 1717578, at *5 (D.N.J. Apr. 29, 2016), reconsideration
denied, No. 14-147 (NLH/KMW), 2016 WL 4414781 (D.N.J. Aug. 18,
2016)(In distinguishing Hurry, 734 F.2d at 881, the Court in
A.S. noted that "due to the child's disability and weight, the
school bus was unable to transport the student. The issue the
court considered was whether the parents were entitled to
reimbursement for transportation where the student's disability
required a special type of transportation to school." (emphasis
added).

29

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 30 of 53

This case is vastly different. Here, the Appeals Court
determined that the Board provided a FAPE for the 2010-2011
school year and declined to "consider whether the parents'
alternate placements were appropriate." [Doc. #93 at 4].
Further, the Appeals Court held there was "no basis in the
record to conclude the Board breached the 2009 settlement
agreement." [Doc. #93 at 5]. Because the Court of Appeals found
no IDEA violation or breach of the 2009 Settlement Agreement,
there are no grounds for this Court to fashion additional relief
here. See Burlington, 471 U.S. at 370-71 ("Reimbursement merely
requires the Town to belatedly pay expenses that it should have
paid all along and would have borne in the first instance had it
developed a proper IEP."); Ruby v. Jefferson Cty. Bd. of Educ.,
122 F. Supp. 3d 1288, 1309 (N.D. Ala. 2015)

("Plaintiff is

entitled to costs, not wages. The court concludes that Defendant
did not deny Plaintiff a FAPE by offering her only the costs
associated with transporting L.L. to and from [school], and not
the cost that Defendant would have had to pay an employee in her
stead.").
During the pendency of this case, both before the Hearing
Officer and District Court, no decision or ruling contradicted
the defendant's position that the Board had no obligation to pay
pendency services because plaintiff violated the explicit terms
of the Settlement Agreement which "expressly conditioned [the
30

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 31 of 53

parents right to reimbursement] upon...the Student's continued
attendance at the program selected by the Independent
Consultants during the applicable portion of the 2009-10 school
year." Id. This did not relieve the Board of the obligation to
pay. The Court of Appeals held that "the parties' intent as to
the duration of T.D.'s home program [did] not alter the Board's
reimbursement obligation under the stay-put provision." [Doc.
#93 at 4-5]. As set forth later in this opinion, equitable
relief in the form of compensatory education may be available to
remedy the Board's failure to provide pendency services during
the stay-put. But the hearing record is devoid of evidence that
plaintiff sought either reimbursement for expenses during the
stay-put period or a court order requiring the Board to provide
services.
Moreover, although the "Board's obligation to fund stay-put
placement is rooted in statute, not contract," the Court is
tasked with calculating the "total value of the home program, as
specified in the [2009] settlement agreement" for the period of
November 18, 2010 through August 4, 2016. [Doc. #93 at 4-5
(emphasis added)]. The 2009 Settlement Agreement specified
limited services then being delivered by qualified providers.
Nor is the Court persuaded by plaintiff's argument that she was
forced to provide home-based services for her son because she

31

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 32 of 53

was unable to pay qualified providers.22 [Tr. 3/29/17 at 608:1517]. Plaintiff failed to demonstrate that she sought

22 At several points during the pendency of plaintiff's appeal of
the 2010-2011 IEP, the Board resumed discussions with plaintiff
and/or her attorney to find an appropriate educational placement
for T.D. See Pi. Ex. 42 (February 19, 2013 letter from
plaintiff's attorney to Dr. Holland); Pi. Ex. 35 (emails dating
from November 14, 2014 through December 18, 2015, from Janice
Dixon, M.S.W., DDS Case Manager at the Department of
Developmental Services to Mrs. Dervishi and Dr. Holland among
others]. Dr. Holland also testified that at times during the
pendency of this appeal, the Board's staff was not allowed
access to evaluate T.D. [Tr. 3/29/17 at 558:25-559:2].
On or about April 3, 2013, T.D. was placed at the Pinnacle
School for speech and ABA services. [PI. Ex. 21; Tr. 3/29/17 at
429:10-12], Dr. Holland testified,
The parents may disagree with what I'm about to say,
but I was concerned that this young man was not
receiving services. I was concerned that he was not in
the program. And I led the district to continue to
look for other programs that the parents might accept.
Pinnacle, being a program within the boundaries of
Greenwich gave us an opportunity to provide services
while we continued to look for services. And so we
supported [it] financially.
[Tr. 3/29/17 428:20-429:4]. Dr. Holland denied that the
placement was made unilaterally. He testified that "[i]n fact,
it is in response to [plaintiff's] attorney's request to provide
services at the Greenwich Ed[.] Group, which is Pinnacle while
placement at CCD is - while we are awaiting that." [Tr. 3/29/17
512:19-25]. Mrs. Dervishi testified that she never agreed to the
program offered by the Board at the Pinnacle School and she
never signed the agreement to change T.D.'s IEP without
convening a PPT meeting. [Tr. 3/29/17 at 510:4-11, 599:8-13;
Def. Ex. 503]. In an email to Mrs. Dervishi dated April 13,
2013, Dr. Holland stated,
You indicated that we have not had an [IEP] meeting. I
had at your former attorney's request to arrange
service at Greenwich education group while we await
your son's [Connecticut Center for Child Development
32

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 33 of 53

reimbursement from the Board during the stay-put period after
November 18, 2010, by providing the Board with invoices and
proof of payment.23 [Tr. 3/22/17 at 284:17-285:14; Tr. 3/29/17 at
440:13-441:2]. Nor has she made any showing that qualified

("CCCD")] placement. You did not sign[] an agreement
that we sent your former attorney and you now are no
longer represented by him. I ask you now a yes or no
question. Do you want me to cancel the contract with
Greenwich Ed. group, as you did not give your written
approval?
[PI. Ex. 44; Tr. 3/29/17 at 533:20-534:1]. Although the parties
dispute the precise date Mrs. Dervishi withdrew T.D. from the
Pinnacle School, it was sometime in May/June 2013. [PI. Ex. 21,
40 at 3-4, 45, 46, 47; Tr. 3/16/17 at 165:12; 171:2; Tr. 3/22/17
at 277:7-10; Tr. 3/29/17 at 525:3-8; 541:1-2].
23 Under the 2009 Settlement Agreement, the obligation to
reimburse is triggered when plaintiff produced "documentation of
payments (invoices and cancelled checks(s))" for related
services provided to T.D. [Def. Ex. 500 %3]. Dr. Holland,
however, testified that even if the Board were presented with
the proper documentation during the stay-put the Board would not
"reimburse unless ordered by the Court for services provided by
a parent." [Tr. 3/29/17 at 439:8-9; see PI. Ex. 31 (On October
27, 2010, prior to the request for due process. Dr. Holland
emailed plaintiff stating, in part, that "without direction from
an IEP meeting recommendation I am not empowered to support your
request. Do not send your invoices to us."); Tr. 3/29/17 at
570:18-19 (Dr. Holland testified "[w]e did not pay any invoices
once the settlement agreement ended."); id. at 573:3-5 (Dr.
Holland was asked, "Did you provide services from 2011?" He
responded, "If it was after the settlement agreement, no."); id.
at 605:2-6 (Dr. Holland testifying that he did not know if he
was ever rejected invoices after due process was filed "but I
will go on record that if I had invoices submitted to me after
the date of the settlement agreement, yes, I would have returned
them."); id. at 612:16-23 (When asked why the Board did not pay
Mrs. Dervishi for her work with T.D. Dr. Holland responded,
"First, you're not a certified service provider. Second, I don't
recall receiving any bill from you requesting us to pay you for
your service.")].
33

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 34 of 53

providers were unavailable, as in Bucks County. Plaintiff has
not offered any legal authority that would require a Board to
pay a parent for educating her child at home when professional
services were available in the community from qualified
providers and a FAPE was offered by the Board.
Nor is this case similar to the situation in Doe v. E. Lyme
Bd. of Educ., 790 F.3d 440, 456 (2d Cir. 2015). In Doe, it was
"undisputed that the Board refused to pay for the services
described in that IEP during the pendency of administrative and
judicial proceedings" and that the "Board thus violated the
stay-put provision." Id. at 453. This Court cannot find that
Mrs. Dervishi's decision to discontinue the services being
provided by Dr. Fiorile, Lucinda Ribeiro, Marilena Baldino and
Felicia Fera at the Communication Clinic of Connecticut, LLC, to
provide home-based services to T.D. was appropriate or
compensable.
In Board of Educ. of the Pawling Cent. Sch. Dist. v.
Schutz, 290 F.3d 476, 484 (2d Cir. 2002), a case relied on by
plaintiff, the hearing officer awarded, and the State Review
Officer affirmed, the payment of private school tuition during
the stay-put pendency period. The Court found this "constituted
a change in Kevin's current educational placement for purposes
of the pendent placement provisions." Id. The Court added that
the District's fear that it would have to reimburse the parents
34

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 35 of 53

perennially for their child's private education was misplaced.
The Court stated that its conclusion did not mean that the
District must fund the child's tuition for the remainder of his
education, "but rather that, until a new placement is
established by either an actual agreement between the parents
and the District, or by an administrative decision upholding the
District's proposed placement which the [parents] choose not to
appeal, or by a court, the District remains financially
responsible." Id.; see M.R. v. Ridley Sch. Dist., 744 F.3d at
119 ("[A]n administrative ruling validating the parents'
decision to move their child from an IEP-specified public school
to a private school will, in essence, make the child's
enrollment at the private school her 'then-current educational
placement' for purposes of the stay-put rule. Having been
endorsed by the State, the move to private school is no longer
the parents' unilateral action, and the child is entitled to
'stay-put' at the private school for the duration of the dispute
resolution proceedings.")(citation omitted)). Here there has
been no agreement between the parents and the Board, or an
administrative or judicial ruling endorsing Mrs. Dervishi's
provision of home-based services as a change to T.D.'s pendency
placement.
Clearly an order to reimburse tuition for private school
education is distinguishable from Mrs. Dervishi's reimbursement
35

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 36 of 53

claim. Because the Court of Appeals concluded that "the Board
provided T.D. with a FAPE for the 2010-2011 school year," it
declined "to consider whether the parents' alternative
placements were appropriate. "24 [Doc. #93 at 2]. Based on this
finding, this Court also declines to consider the same.
Accordingly, plaintiff's request for reimbursement for
providing home-based services to T.D. is DENIED.
2. Compensatory Relief
Finally, plaintiff's request for "an award of compensatory
relief" for "defendant's failure to abide by the automatic and
unconditional pendency entitlement" for over six years is denied
to the extent Mrs. Dervishi is seeking payment for home-based
schooling that she provided to her son.25 [Doc. #103 54].
Plaintiff contends that because the Board failed to pay $2,500
per week for pendency services "from November 18, 2010 to August

24 Both Judge Eginton and the Hearing Officer found the 2010-2011
IEP offered to T.D. was appropriate and did not violate the
IDEA.
25 Plaintiff argues
Instead of taking responsib[ility] for stay-put
services that denied for years that caused extremely
serious damages to T.D., the district is questioning
and refusing to reimburse or value my work based on
the invoices I have presented. I'm asking the court to
pay me for the time I spent as my son's therapist, not
to pay me for the time I spent with my son as his
mother.
[Doc. #132 174].
36

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 37 of 53

4, 2016 (a total of 298 weeks)," this Court's discretionary
reimbursement award may be up to $745,000 or $2,500 x 298 weeks.
Id. 520. "The IDEA does not provide for compensatory money
damages." Wenger v. Canastota Cent. Sch. Dist., 979 F. Supp.
147, 152 (N.D.N.Y. 1997), aff'd, 181 F.3d 84 (2d Cir. 1999), and
aff'd, 208 F.3d 204 (2d Cir. 2000). "The purpose of the IDEA is
to provide educational services, not compensation for personal
injury, and a damages remedy—as contrasted with reimbursement of
expenses—is fundamentally inconsistent with this goal." Polera
v. Bd. of Educ. of Newburgh Enlarged City Sch. Dist., 288 F.3d
478, 486 (2d Cir. 2002) .
[T]he Supreme Court has emphasized that IDEA relief
depends on equitable considerations. Accordingly,
compensatory education is not a contractual remedy,
but an equitable remedy, part of the court's resources
in crafting appropriate relief. More specifically, as
the Fourth Circuit has explained, [c]ompensatory
education involves discretionary, prospective,
injunctive relief crafted by a court to remedy what
might be termed an educational deficit created by an
educational agency's failure over a given period of
time to provide a FAPE to a student.
Reid ex rel. Reid v. D.C., 401 F.3d 516, 523 (D.C. Cir. 2005)
(internal citations and quotation marks omitted). Plaintiff's
"hour-for-hour formula in effect treats compensatory education
as a form of damages—a charge on school districts equal to
expenditures they should have made previously." Id. This
approach overlooks the Court's equity jurisdiction "to do equity
and to mold each decree to the necessities of the particular
37

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 38 of 53

case. Flexibility rather than rigidity has distinguished it."
Id. at 524 (quoting Hecht Co. v. Bowles, 321 U.S. 321, 329
(1944)).
Accordingly, to the extent plaintiff seeks an award of
compensatory money damages, her claim is DENIED.
D. Prospective Compensatory Education
"There is, however, another remedy: compensatory education."
Doe v. E. Lyme Bd. of Educ., 790 F.3d at 456. "Under the theory
of

XX X

compensatory education,' courts and hearing officers may

award 'educational services...to be provided prospectively to
compensate for a past deficient program.

t //

Reid ex rel. Reid,

401 F.3d at 522 (quoting G. ex rel. RG v. Fort Bragg Dependent
Schs., 343 F.3d 295, 308 (4th Cir. 2003)); Somoza v New York
City Dept, of Educ., 538 F3d 106, 109 n.2 (2d Cir. 2008)
(

XX x

Compensatory education' is prospective equitable relief,

requiring a school district to fund education beyond the
expiration of a child's eligibility as a remedy for any earlier
deprivations in the child's education.")

(citing Burr v. Sobol,

888 F.2d 258 (2d Cir. 1989)). "[W]hen an educational agency has
violated the stay-put provision, compensatory education may-and
generally should-be awarded to make up for any appreciable
difference between the full value of stay-put services owed and
the (reimbursable) services the parent actually obtained." Doe,
790 F.3d at 456-57.
38

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 39 of 53

The Court in Doe, recognized that if
the parent cannot afford to finance any or all stayput services, the Board would get to pay less than
what it should have, or nothing-and, more important,
less than what was needed for the child's benefit.
Moreover, such an arrangement would make the stay-put
obligation contingent on the means of a child's
family-a legally irrelevant variable.
Id. at 456 (citing E.M. v. New York City Dep't of Educ * f 758
F.3d 442, 452 (2d Cir. 2014) ("The IDEA promises a free
appropriate education to disabled children without regard to
their families' financial status."); Miener By & Through Miener
v. State of Mo., 800 F.2d 749, 753 (8th Cir. 1986)("We are
confident that Congress did not intend the child's entitlement
to a free education to turn upon her parent's ability to 'front'
its costs.")).
"Because the obligations imposed by the IDEA generally
terminate when a child reaches the age of 21, compensatory
education 'is unavailable to a claimant over the age of twentyone in the absence of gross procedural violations. t n Doe, 740
F.3d at 456, n.15 (quoting Garro v. State of Conn., 23 F.3d 734,
737 (2d Cir. 1994); Mrs. C. v. Wheaton, 916 F.2d 69, 75 (2d Cir.
1990)); Wegner, 979 F. Supp. at 151 ("The Second Circuit...
allows for compensatory education for a child over twenty-one
years where there has been a gross violation of the IDEA.")
(citation omitted).

39

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 40 of 53

But even where gross violations occur, there is no
obligation under the IDEA to provide a child with
compensatory education equal to the length of time he
or she was denied an appropriate education because
compensatory education is not a contractual remedy,
but an equitable remedy, part of the court's resources
in crafting "appropriate relief."
Wegner, 979 F. Supp. at 151 {internal citation and quotation
marks omitted). In Student X v. New York City Dept, of Educ.,
the Court found that "Defendant's violation of the statutory
pendency provision was a gross violation." No. 07-CV2316(NGG)(RER), 2008 WL 4890440, at *25 (E.D.N.Y. Oct. 30, 2008)
(citing cases); see Burr by Burr v. Ambach, 863 F.2d 1071, 107576 (2d Cir. 1988)

(finding a gross violation in the undue delay

to hold a hearing and issue a hearing officer's decision
resulting in a denial of "an appropriate education during
pendency of the proceedings, the precise unfortunate result that
the 'stay-put' provision was designed to prevent."); Bd. of
Educ. of Hendrick Hudson Cent. Sch. Dist., Westchester Cty. v.
Rowley, 458 U.S. 176, 206-07 (1982){"[A] court's inquiry in
suits brought under § 1415(e)(2) is twofold. First, has the
State complied with the procedures set forth in the Act? And
second, is the individualized educational program developed
through the Act's procedures reasonably calculated to enable the
child to receive educational benefits?") .
It is important to note that this case differs from the
compensatory education cases cited above. First, the 2009
40

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 41 of 53

Settlement Agreement did not purport to be a FAPE or an agreedto IEP. Rather, the Agreement was a unilateral placement funded
by the Board for a limited duration until the parties could
agree to an IEP for the 2010-2011 school year. [Def. Ex. 500 16
("The Parties understand and acknowledge that the Board is
making the payments described above solely as an accommodation
to the Parents and in order to avoid the costs of protracted
litigation.")]. The Hearing Officer found that "[b]ecause the
[2010-2011] IEP offer[ed] an appropriate program in the LRE, the
Parents were not entitled to reimbursement for any other
placement, including reimbursement for their home program and/or
the McCarton School...." [Doc. #81 at 60]. In August 2015, Judge
Eginton found that the "Board's contractual duty to reimburse
for home-based education ceased after the Parents rejected the
independent consultants' 2010-2011 IEP which constituted the
current placement for purposes of the stay-put provision. [Doc.
#81 at 15]. In August 2016, the Appeals Court found that the
Settlement Agreement did not alter the Board's obligation to
fund T.D.'s educational placement during the pendency of the
dispute and remanded the case to calculate reimbursement. [Doc.
#93 at 4-5]. As stated, the Hearing Officer, District Court and
Appeals Court all found that the Board offered T.D. a FAPE for
the 2010-2011 school year. See Doc. #81, 93.

41

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 42 of 53

The evidence shows that T.D.'s parents did not seek
reimbursement from the Board under the 2009 Settlement Agreement
after due process was initiated on November 18, 2010. The Board
would have been obligated to pay if the parents submitted the
supporting documentation to process the reimbursement payments.
Although the Board's witness candidly conceded that the Board
would have declined to do so after the expiration of the
Settlement Agreement, this would have provided plaintiff with an
opportunity to petition the court for reimbursement.
In fashioning equitable relief, the Court must consider the
parents' conduct in the context of the situation at the time
they filed for due process. The Board had ceased payments under
the Settlement Agreement prior to November 18, 2010, because the
Dervishis had not complied with the Agreement. See Reid, 401
F.3d at 524 (internal citations and quotation marks
omitted)("[Cjourts have recognized that in setting the award,
equity may sometimes require consideration of the parties'
conduct, such as when the school system reasonably requires some
time to respond to a complex problem, or when parents' refusal
to accept special education delays the child's receipt of
appropriate services.").
Even if plaintiff could show a gross violation of the stayput provision, a court can choose not to award compensatory
education if there are no educational deficiencies to be made
42

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 43 of 53

up.26 See Phillips v. Dist. of Columbia, 736 F. Supp. 2d 240, 247
(D.D.C. 2010)

("[I]t may be conceivable that no compensatory

education is required for the [violation of a stay-put
provision] either because it would not help or because [the
student] has flourished in his current placement....")
(citations and internal quotation marks omitted). Awarding
compensatory education when there is no discernible lost
progress and a student is on track academically is unnecessary
because that would be akin to awarding damages which the IDEA
does not allow. A.S. v. Harrison Twp. Ed. of Educ., Civil No.
14-147 (NLH/KMW), 2016 WL 1717578, at *4 (D.N.J. Apr. 29, 2016),
reconsideration denied. No. 14-147 (NLH/KMW), 2016 WL 4414781
(D.N.J. Aug. 18, 2016) (finding that the student was "on the
right educational path and did not require restoration."). "This
means that the plaintiff has the burden of proposing a wellarticulated [compensatory education] plan that reflects the
student's current education abilities and needs and is supported
by the record." Phillips, 736 F. Supp. 2d at 248 (citation and
quotation marks omitted).

26 Both the Hearing Officer and Judge Eginton found that "[t]he
Board did not commit any procedural violations which resulted in
a denial of FAPE during the 2010-11 school year." [Doc. #81 Ex.
1 at 19; Doc. #89 at 9 (ruling on summary judgment, Judge
Eginton agreed with the Hearing Officer that "the Parents had
been provided with a meaningful opportunity to participate in
the development of the IEP.")].
43

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 44 of 53

To be fair, Mrs. Dervishi, prose, has not requested
compensatory education. Throughout these proceedings, Mrs.
Dervishi has maintained that the home-based services that she
solely provided after June 2011 were appropriate, that she
followed the ABA programming and that T.D. met the set
educational milestones and progressed. See Tr. 3/29/17 at
599:19-22 ("The services I provided were more, you know, T.D.
can benefit and was making good progress at this time with the
program I provided than you know, was offered for T.D."). This
position was taken in her effort to receive reimbursement for
the services she said she provided to her son, which she
contended were as good as the services delivered by the private
qualified providers. See Doc. #103 3113 ("The stipulation of
settlement did not require us to conform to a particular program
to recover the $2,500.00 in funding per week. So long as the
pendency services fell under the enumerated categories, we could
receive funding for $2,500.00 weekly."); 320 ("To the extent
that Stamford failed to provide the $2,500 pendency benefit from
November 18, 2010 to August 4, 2016 (A total of 298 weeks), this
Court's pendency 'funding' discretion extends to $745,000, i.e.
$2,500 x 298 weeks...we respectfully ask this Court to award the
full amount of its pendency funding discretion or, in the
alternative, such lesser amount as this Court believes is
warranted under the circumstances."); 327 (The Board "fails to
44

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 45 of 53

take into account that it was left up to my husband and I, as
T.D.'s parents, to determine the program mix for T.D., as long
as it contained ABA, OT, ST or ABA consulting...The Stamford
district left the programming up to us, and they were required
to pay the $2,500 per week to fund these services."); SI29
("[T]he Second Circuit's remand order makes clear that we did
not lose the right to ($2,500 per week) funding under pendency;
an automatic and unconditional right." (emphasis in original)).
Plaintiff has not presented evidence or conceded that T.D.
regressed during the pendency stay-put period of November 18,
2010 through August 4, 2016, even though, as Judge Eginton found
in his summary judgment ruling, "[t]he evidence at the [due
process] hearing indicated that the home-based education program
has resulted in regression of T.D.'s skills and that his
problematic behaviors had increased." [Doc. #89 at 11; see Doc.
#81 at 11 (In May 2011, the Hearing Officer found that T.D.
"continues to receive his education at his home program, which
consists of one to one services in his bedroom. His lead home
therapist [Ms. Ribeiro] testified that the Student is regressing
in this program.")].
An August 1, 2013 Psychoeducational Evaluation from Dr.
Erik A. Mayville states
[T.D.] has been without the benefit of a formal, full­
time educational program for several years. Through
his overall level of intellectual functioning appears
45

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 46 of 53

relatively unchanged, it is highly likely that he is
not able to demonstrate the full range of academic,
communication, and social interaction skills that he
once did. Partial results of the Vineland-II may offer
some support of skill loss in social coping skills,
receptive communication, and personal daily living
skills. It is expected that intensive, evidence-based
instruction relevant to adolescents with ASDs will
help [T.D.] recover previously learned skills and to
learn new repertoires.
[PI. Ex. 32 at 17; see also PI. Ex. 42 at 2 (February 14, 2013
letter from Dr. Nancy O'Hara stating that T.D. "has had a
significant increase in aggression, agitation and out-of-control
behaviors" and recommending home bound tutoring with at least 20
hours of behavioral therapy weekly)].
Plaintiff testified that in 2012, the Board reported Mrs.
Dervishi to the Department of Children and Families for
educational neglect with referral to the Juvenile Court.

[Tr.

3/16/17 at 146:5-9, see also Tr. 3/16/17 at 151:17-22 (plaintiff
testifying that T.D. started "terrible behavior..."[h]e left the
house. Many times he ran in the street. We called the police to
find him."); 156:14-17 (plaintiff recounting two incidents when
T.D. attempted to open the car door while she was driving in
Manhattan); PI. Ex. 42 at 2 (letter dated February 14, 2013 from
Dr. Nancy O'Hara stating in part that T.D. "had a significant
increase in aggression, agitation and out-of-control
behaviors."); PI. Ex. 42 at 3 (letter dated February 14, 2013
from Dr. Haydee Laneman stating in part that it was "impossible

46

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 47 of 53

to retrieve" an intravenous blood draw due to T.D.'s behavior
during the procedure)]. On rebuttal, plaintiff argued that "the
district has caused extremely serious damages to the child and
huge gap that will make him to be dependent from others all his
life when he has the ability and capacity to be independent
adult."27 [Doc. #132 585]. However, the only remedy plaintiff
sought was reimbursement for the time she provided home-based
services to T.D. during the stay-put pendency.
No compensatory educational plan was proposed, and no
current evidence was presented-such as academic reports, teacher
evaluations, or parent testimony addressing educational
deficiencies attributable to the failure to provide covered
services pursuant to the stay-put 2009 Settlement Agreement.
T.D. has now been enrolled at a private school in New York City
since September 2016, being educated there with the support of
the Board of Education. "[A] compensatory award fashioned by the
[Court] must be the result of a 'fact-specific' inquiry that is
'reasonably calculated to provide the educational benefits that
likely would have accrued from special education services the
school district should have supplied in the first place. / //
Phillips, 736 F. Supp. 2d at 248 (emphasis in original) (quoting

27 Plaintiff also stated that during T.D.'s brief attendance at
the Greenwich Education and Prep • t LLC, he "did not learn
anything, but only regressed and misbehaved." [Doc. #132 546].
47

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 48 of 53

Reid, 401 F.3d at 524)); Doe, 790 F.3d at 457 ("[W]e leave to
the district court whether compensatory education should be
limited to the kinds of services specified in the amended 20082009 IEP, or encompass analogous educational services
appropriate to the Student's current needs."). Plaintiff
testified that that the parties agreed to an IEP for the 20162017 school year. Since September 2016, T.D. has been attending
a private school in New York City from 8:45 AM to 5:00 PM and
receiving intensive ABA programing for five hours per day. [Tr.
3/16/17 at 153:20-25, 156:10-14].
Without any evidence of discernible lost progress or a
proposed compensatory education plan, there is no record on
which to award any compensatory education for services that were
not sought, not provided and may not be needed at this time.
Phillips, 736 F.2d at 248 ("[t]he Court must be wary of
mechanical calculations because a reasonable calculation of a
compensatory award must be qualitative, fact-intensive, and
above all tailored to the unique needs of the disabled
student.")(citation and internal quotation marks omitted).
That said, this Court recognizes that given the potential
availability of an equitable remedy for compensatory education,
if T.D. can meet the evidentiary burden, his entitlement to this
award should not depend on his parents' capacity to front the
costs for pendency services. Once it is established that a child
48

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 49 of 53

is entitled to pendency stay-put services, the Court should
provide the parties with additional time to supplement the
record if there is insufficient evidence to support an award for
compensatory education. See Phillips, 736 F.2d at 248 ("a
Hearing Officer may provide the parties additional time to
supplement the record if she believes there is insufficient
evidence to support a specific award.")(citations and internal
quotation marks omitted).
This Court's limited charge from the Court of Appeals was
to "(i) calculate the total value of the home program, as
specified in the settlement agreement, for the period from
November 18, 2010 until the dispute over the 2010-2011 IEP is no
longer pending, and (ii) order the Board to pay that amount to
Dervishi." [Doc. #93 at 5]. That has been done; plaintiff is
entitled to reimbursement in the total amount of $37,012.87.
If in light of this determination and T.D.'s progress at
this current school placement, Mrs. Dervishi believes that the
Board's failure to fund the pendency program has caused damage
that can be ameliorated by compensatory services she should be
given an opportunity first to seek it from the Board or,
alternatively, to make that showing, preferably to a Hearing
Officer whose expertise would assist in fashioning compensatory
education tailored to his individual needs as the IDEA requires.

49

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 50 of 53

To be sure, it is conceivable that no compensatory
education is required for the denial of pendency services
because any alleged deficiencies suffered by T.D. have been
mitigated, or totally alleviated, by his current private school
placement. Given the Appeals Court's finding that the Board was
responsible for funding T.D.'s existing educational placement
during the pendency of the dispute, from November 18, 2010
through August 4, 2016, and evidence in the record28 that T.D.
may have suffered a setback in his educational development as a
result of the unavailability of pendency funding, the Court
concludes that plaintiff should not be precluded from seeking,
and proffering evidence necessary to support, an award of
compensatory education for T.D.
To award equitable relief in the form of compensatory
education, the law will require a record of lost progress and/or
28 Throughout these proceedings, Mrs. Dervishi has
steadfastly argued that she provided ABA services as good as
those rendered by professional qualified providers. By taking
this position, she has eschewed any evidence or argument that,
during the stay-put pendency period, T.D. experienced
developmental and/or educational regression or lost progress.
This raises the question whether Mrs. Dervishi's pro se advocacy
for reimbursement precluded her from seeking prospective
compensatory education because it conflicted with the value she
placed on her services.
An alternative path is available. Plaintiff may
simultaneously argue for prospective relief in the form of
compensatory education to remedy any deprivations in T.D.'s
education without waiving her right to continue to litigate on
appeal for reimbursement, if she chooses. Or she may seek
appointment of counsel to argue for compensatory education.
50

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 51 of 53

evidence to support such an award. Rowley, 458 U.S. at 207 {"The
primary responsibility for formulating the education to be
accorded a handicapped child, and for choosing the educational
method most suitable to the child's needs, was left by the Act
to state and local educational agencies in cooperation with the
parents or guardian of the child."); N.R. ex rel. B.R. v. San
Ramon Valley Unified Sch. Dist., No. C 06-1987 MHP, 2007 WL
216323, at *7 (N.D. Cal. Jan. 25, 2007)("[The parent] is not
entitled to his choice of service providers. [] The Act requires
only that the service provider be able to meet his needs.").
There is no evidence as to T.D.'s current needs in this record.
"[T]he record in an IDEA case is supposed to be made not in
the district court but primarily at the administrative level[.]"
Reid, 401 F.3d at 527. The choice of methodology in providing
special education services is the prerogative of the school
district. See Rowley, 458 U.S. at 208. Should agreement not be
possible, a Hearing Officer could develop a record with the
information needed to determine and correct T.D.'s educational
deficits, if any, and to fashion an appropriate award of
compensatory education based on Stamford's failure to provide
T.D. with the pendency stay-put services that were specified in
the Settlement Agreement, i.e. speech, occupational therapy, ABA
services and autism consulting services. Def. Ex. 500 53.

51

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 52 of 53

CONCLUSION
For the reasons stated, defendant is ordered to reimburse
plaintiff for stay-put services in the amount of $30,222.50 and
stay-put transportation expenses in the amount of $6,790.37
together with interest at the rate set forth in 28 U.S.C.
§1961(a) calculated from the date the Court of Appeals' Summary
Order dated August 6, 2016. Streck v. Bd. of Educ. of the E.
Greenbush Central School Dist., 408 F. App'x 411, 414-15 (2d
Cir. 2010).
This is a recommended ruling. Any objections to this
recommended ruling must be filed with the Clerk of the Court
within fourteen (14) days of the receipt of this order. See 28
U.S.C. §636(b)(1); Fed. R. Civ. P. 6(a) & 72; Rule 72.2 of the
Local Rules for United States Magistrate Judges, United States
District Court for the District of Connecticut; Impala v. United
States Dept, of Justice, 690 Fed. App'x 32 (2d Cir.
2016)(summary order)(failure to file timely objection to
Magistrate Judge's recommended ruling will preclude further
appeal to Second Circuit); cf. Small v. Sec'y of Health and
Human Servs., 892 F.2d 15, 16 (2d Cir. 1989)(failure to file
timely objection to Magistrate Judge's recommended ruling may

52

Case 3:ll-cv-01018-MPS Document 145 Filed 04/19/18 Page 53 of 53

preclude further appeal to Second Circuit).
Dated at Bridgeport, this 19th day of April 2018.

/s/
HOLLY B. FITZSIMMONS
UNITED STATES MAGISTRATE JUDGE

53

APPENDIX C

18-2745

Dervishi v. Dep’l ofSpecial Educ.

UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

AMENDED SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE PRECEDENTIAL EFFECT. CITATION TO A SUMMARY
ORDER FILED ON OR AFTER JANUARY 1, 2007, IS PERMITTED AND IS GOVERNED BY FEDERAL RULE OF
APPELLATE PROCEDURE 32.1 AND THIS COURT’S LOCAL RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A PARTY MUST CITE EITHER THE FEDERAL APPENDIX OR AN
ELECTRONIC DATABASE (WITH THE NOTATION “SUMMARY ORDER”). A PARTY CITING TO A SUMMARY
ORDER MUST SERVE A COPY OF IT ON ANY PARTY NOT REPRESENTED BY COUNSEL.

At a stated term of the United States Court of Appeals for the Second Circuit, held at
the Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York,
on the 1st day of March, two thousand twenty-one.
PRESENT:
DENNIS JACOBS,
JOSEPH F. BIANCO,
MICHAEL H. PARK,
Circuit Judges.

Shkelqesa Dervishi, on behalf of T.D.,
Plaintiff-Appellant,
18-2745-cv

v.
Department of Special Education,
in Stamford Public School, Stamford
Board of Education,
Defendants-Appellees.

FOR PLAINTIFF-APPELLANT:

Deborah G. Stevenson, Deborah G.
Stevenson Law, LLC, Southbury, CT, counsel
for Shkelqesa Dervishi (on the brief), Stamford,
CT.

CERTIFIED COPY ISSUED ON 03/01/2021

FOR DEFENDANTS-APPELLEES:

Richard J. Buturla, Berchem Moses PC,
Milford, CT.

Appeal from an order of the United States District Court for the District of Connecticut
(Eginton, J.; Fitzsimmons, M.J.).
UPON DUE CONSIDERATION, IT IS HEREBY ORDERED, ADJUDGED, AND
DECREED that the judgment of the district court is AFFIRMED in part and VACATED and
REMANDED in part.
Appellant Shkelqesa Dervishi,pro se, sued the Stamford Board of Education (“the Board”)
individually and on behalf of her autistic son, T.D., claiming that he was denied a free and
appropriate public education (“FAPE”) required by the Individuals with Disabilities Education Act
(“IDEA”). The district court ruled against her on the merits and a prior panel of this Court
affirmed the decision with one exception: We remanded because, under the “stay-put” provision
of the IDEA, 20 U.S.C. § 1415(j), Dervishi was entitled to reimbursement for the home-based
education program T.D. received while the parties’ dispute was pending.

See Dervishi v.

Stamford Bd. of Educ., 653 F. App’x 55 (2d Cir. 2016). The Board had agreed to reimburse
Dervishi for certain expenses of that program in a settlement agreement. Therefore, we directed
that “[o]n remand, the district court should (i) calculate the total value of the home program, as
specified in the settlement agreement, for the period from November 18, 2010 until the dispute
over the 2010-2011 IEP is no longer pending, and (ii) order the Board to pay that amount to
Dervishi ” Id. at 58.
On remand, pursuant to a referral by the district court, the magistrate judge held an
evidentiary hearing to determine the amount the Board owed to Dervishi under the terms of the
settlement agreement, and Dervishi also requested compensatory education for the first time. The

magistrate judge issued a Recommended Ruling, which contained factual findings and
recommended granting Dervishi’s requests for reimbursement for services that were in place when
the dispute began and for mileage traveled to transport T.D. to those services, but denying
Dervishi’s requests for reimbursement for therapy received in 2015 and 2016, YMCA classes,
payment for her own time working with T.D. and transporting him to services, and compensatory
education. The district court adopted the magistrate judge’s Recommended Ruling, and Dervishi
appealed. In July 2020, we denied Dervishi’s request for an injunction granting immediate
compensatory education and requested briefing on whether she was permitted to represent her
child in this proceeding. i

We assume the parties’ familiarity with the underlying facts, the

procedural history of the case, and the issues on appeal.
The district court proceedings on remand consisted of an evidentiary hearing.
Accordingly, as with a bench trial, “we review the district court’s findings of fact for clear error
and its conclusions of law de novo. Mixed questions of law and fact are also reviewed de novo.”
Castillo v. G&M Realty L.P., 950 F.3d 155, 165 (2d Cir. 2020); accord Anderson v. City of
Bessemer City, 470 U.S. 564, 575 (1985). Under this standard, we review de novo the district
court’s “legal conclusions with respect to its interpretation ofthe terms of a settlement agreement.”
Omega Eng’g, Inc. v. Omega, S.A., 432 F.3d 437, 443 (2d Cir. 2005).

1 The issue of whether Dervishi is permitted to appear pro se on behalf of her child in this appeal
has been rendered moot by Dervishi having retained counsel on October 21,2020. Moreover, counsel for
Dervishi clarified at oral argument that, although Dervishi is challenging the district court’s denial of
Dervishi’s requests for certain reimbursements after the remand, she is not challenging any ruling on
compensatory education, which she has not as yet requested.
3

Based on our review of the record and relevant case authority, we conclude that the district
court properly construed the terms of the settlement agreement and did not err in calculating the
amount owed to Dervishi, with the exception of Dr. Stephanie Bader’s services. In the parties’
settlement agreement, the Board agreed to reimburse Dervishi and her husband for the following
costs related to T.D’s home-based program: (a) “$2,500 per week for the cost of speech,
occupational therapy[,] . . . [Applied Behavioral Analysis (“ABA”)] services, and autism
consulting services provided to [T.D.]” as evidenced in “documentation of payments” made by
T.D.’s parents; and (b) “their provision of transportation of [T.D.] to and from his sessions with
service providers ... based on the applicable IRS mileage rate.” Record on Appeal (“ROA”) doc.
30 at 13. The term “autism consulting services” was not defined, but Dr. Wayne Holland, the
Director of Special Education Services for Stamford public schools who signed the agreement on
behalf of the Board, testified that “it would be a company or an individual that offers services to
families and children that are on the autism spectrum.” ROA doc. 138 at 38. He further testified
that, under the agreement, “the type of service would have been directed ... by [T.D.’s] family,”
that “the parents were given a lot of latitude to help design the services,” and that some of Dr. Carol
Fiorile’s services qualified as autism consulting services. Id. at 17, 38. The parties’ testimony
established that Dr. Fiorile was a Board-Certified Behavior Analyst (“BCBA”) who directed and
supervised the home-based program at the time the dispute began; she did not work with T.D. oneon-one but rather observed and supervised the ABA therapists working with T.D. and Dervishi to
ensure T.D. was progressing in the home-based program she designed. Dervishi testified that she
sought Dr. Bader’s help with T.D.’s autism-related behavioral issues because Dr. Fiorile was not
available. Dr. Bader, who is also a BCBA, testified that she provided services to both T.D. and
4

his mother that addressed his autism-related behavioral issues, and the parties do not dispute that
she was qualified to do so. She worked with T.D. on his behavioral issues both directly and by
observing Dervishi work with him and offering advice to her. Trial testimony also demonstrated
that Dervishi’s inclusion in the therapy was not unique to Dr. Bader’s work; T.D.’s services at the
Communication Clinic of Connecticut, which were covered by the settlement agreement, were also
directed to the family. Assessment of the evidence as a whole clearly supports a finding that Dr.
Bader’s services were substantially similar to services the Board agreed to cover in the settlement
agreement and fell squarely within the Board’s understanding of “autism consulting services.”
Accordingly, the district court erred in denying this request as unrelated “family therapy,” and
Dervishi is entitled to be reimbursed $740 for what she paid for those services.
The district court correctly denied Dervishi’s other requests. Dervishi argued that she
should be reimbursed over $400,000 for 7,000 hours she spent providing T.D. with “ABA
services,” relying on Bucks County Department of Mental Health/Mental Retardation v.
Pennsylvania, 379 F.3d 61 (3d Cir. 2004). In the settlement agreement, the Board agreed to
reimburse the parents only for transportation expenses “based on the applicable IRS mileage rate,”
not for their time or other work. ROA doc. 30 at 13. The Board also agreed to reimburse the
parents for “ABA services” in the settlement agreement. Based on the parties’ testimony and the
home-based program in place at the time this dispute began, it is clear that “ABA services”
referenced ABA therapy and related work by qualified professionals. Dervishi’s testimony also
plainly established that she was not a qualified provider of ABA therapy. Her formal education
was in accounting and finance, and her only “training” as a therapist consisted of observing T.D.’s
therapists and working with T.D. under their observation, and attending a single course designed
5

for parents in 2004. Thus, the terms of the settlement agreement clearly precluded reimbursement
for any services Dervishi provided herself. Her reliance on Bucks County is unavailing because,
in that case, the court was crafting an equitable remedy for an IDEA violation where the school
board refused to provide services, and the mother had shown that a trained service provider was
not available. 379 F.3d at 63. Here, however, the school board did not refuse to provide services
within the reimbursement period, Dervishi’s claims that there was an IDEA violation have already
been rejected by this Court, and the only reimbursement Dervishi is entitled to was that agreed
upon in the settlement agreement.
Finally, Dervishi’s own testimony about the YMCA classes established that those services
were provided by children. Accordingly, the YMCA classes also did not fall within the scope of
“ABA services.”

We have considered all of Dervishi’s remaining arguments and find them to be without
merit.

For the foregoing reasons, the judgment of the district court is VACATED and

REMANDED with regard to reimbursement for Dr. Bader’s services, and AFFIRMED in all
other respects.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

A True Copy
Catherine O'Hagan Wi

6

-£ierk

United States Cou tpf Appea ASecond Circuit
J secono
i t

Case 18-2745, Document 212, 03/24/2021, 3062919, Pagel of 1

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of Appeals for the Second Circuit, held at the
Thurgood Marshall United States Courthouse, 40 Foley Square, in the City of New York, on the
24th day of March, two thousand twenty-one.

Shkelqesa Dervishi, on behalf of T.D.,
Plaintiff - Appellant,
v.

ORDER

Department of Special Education, in Stamford Public
School, Stamford Board of Education,

Docket No: 18-2745

Defendants - Appellees.

Appellant, Shkelqesa Dervishi, filed a petition for panel rehearing, or, in the alternative,
for rehearing en banc. The panel that determined the appeal has considered the request for panel
rehearing, and the active members of the Court have considered the request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is denied.
FOR THE COURT:
Catherine O'Hagan Wolfe, Clerk

APPENDIX D

I

it'fhibi'l' ^
!•

)

l

WHEBBA3.

a.k

of

r

and
Sanaa

ateyMiiikHlv
to

WHB8BAS,d»

l:

-r*
l

li

Board

pMfc|Wrtrt
T

—=■

■

ft

15.2U0*tt>be
HOtoteM
awdaUno ktW
«r

EEs.

#0 devdopoe* ofpub aad dgedtei fa; fe
IBBite

to

to

teMtftttfflve(Q

m
at
■JbrjAo

ferny 15.2U0; db HMMI

S3P»

!
1

i

i

i .

hi

i

2010 to opart oa tfco naoiCB ofduo

Du
1

1
0

A.10

i

EXHIBIT

;

i

tttotbi

to^dtolte
TtoBoftzdtai

hb

tor

M«Q

or
coUibifli

L fan (to pi

to

3.

ID

d*

aooMpto
tortsujkhj^oa
tofteStotorttoa
M ffafiood

3009dno)h

to do
StofertOrfi*

ft*nny3O10

m

An

a

to

2009r45-)d^»

Qrcfaooljoar.
of(to Bonfr zeoefet of

MB

/ Vf

oft

Mortal

totofftlBF. TtoBoadwgl
oftoe
to

the «*

of (to
to

ofante,

tor
(to

’

Stndeaft

to
|Wto»nltondrnllrMiJtoaiyfcimn(tooBdh(tec20Q9-2010*cbool
uacnadf
toSenfixdaodtto dtodotopooi

pacdoB of(to 2O0MOO0 aAoot jmk.

•:

ShodAto
r
s

MBMtirtimeMBeed $*,«», «***

^

3

ArtjTwfppyt

i
2

A-153

H

.*

I

| ^|i^iBiionoiAAMchiBi
4.
2010,t>ite(Iie2MnfitHttQato

[

I*
i

*

10

IBPfa

(fa

i

tote i

fartfaadcnfc
ifnnpqno |

i

5*

L.

In

j

i
i
i

&
10

7.
^flfttevei

a

zstes*
bBo«tinMtb

T
re«inril.Act,4i

! UAC facta 2983 oolite 1Mb
&

cttaoptfabiou

Tfa

jfl-gr

of(fa
totfafr
IEBBI
i

I
:■

a
feoBoatd
fcboobto
gnUi

(fa

flat

r

3

P-7
*

*

I

I

!

t
10.. Itetaetfstgneiteiaapnttafll&Agneniatdadlte
^^P^fawteatlticccwtytpqifiweftewgpepneuL n»pctiaactiv*fa$eilat«ll,
m>tol!Hloccngpddoi^Q»mpda!teaqp)omri^bccon!MertM«fl(iMyaotbj
I

tspcctt oftfaSs Apcaneot. tacfarfog, tatnofttBafed to, tetettiatfeBonlfepKnifiag
OTineotWtolteltattL Sbo^flglten^iBftrlifa^crcdltctff^^tlofeflihilritt
Bte

xegafacd to xetamto teBanri fte eflto ponaatfO ad tefiondsnqr

1

icbB .
i

i

|
11. ltepcifesidBnflwlB^gtfilattttiiiAgDBenMatlifcgfltrMaa^Aotttta
?tfte ad eafiaoettds to «qr State oout ofoowpetemJmMdfaa or fa a &tcktcoiat of
rMM ftrtfiTi

K WONBSS WHBBBOEP. fl» pbiIbi ftne «ettftefr tenb IUi

J,

t8l

i
i
Mbs^o; 20QK
»

f

IPAREKIS

-iMsdfr Jews/e' y/Zif/^y
I

&

z/khUeSS AC lloPSlklh/
4W&W X- 0e*vWl D*
4^2 4/
"

Witness

r»

1

—

i

Witness
i
i
i

i

;

I

J

i
i

*

D

4

i

P"7
9s ), .A L

APPENDIX E

Case 3:ll-cv-01018-WWE Document 103 Filed 11/21/16 Pacj,e 1 j>f 1^ ^

UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT

JOK NOV 2 I PH 12 38

US DISTRICT COURT

Shkelqesa Dervishi on behalf of her
Handicap minor child T.D.
Plaintiff,

CIVILACTI&?JP 0 R T CT
3:11-CV-1018-(WWE)

v.
Stamford Board of Education,
Defendant

November 21,2016

AFFIDAVIT AND RESPONSE OF SHKELQESA DERVISHI IN
SUPPORT OF SECOND CIRCUIT “PENDENCY” REMAND ADJUDICATION
STATE OF NEW YORK

}

} ss.
COUNTY OF NEW YORK

}

Shkelqesa Dervishi, being duly sworn, deposes and says:
1.

I am the named plaintiff and mother of T.D. and respectfully submit this affidavit

(a) in support of plaintiffs’ application to this Court for an adjudication of the automatic and
unconditional pendency related “funding” relief to which plaintiffs are entitled pursuant to the
Second Circuit’s August 4, 2016 remand mandate and (b) in opposition to defendant, the
Stamford Board of Education’s brief that unfairly attempts to deprive us of any pendency
funding relief. i
2.

I readily acknowledge and accept the fact that plaintiffs did not prevail on the

merits at any level. Plaintiffs also acknowledge that this remand was not directed by the Second
Circuit in order to relitigate any aspect of the case on the merits. This remand was ordered solely
to quantify and direct the scope of the automatic and unconditional pendency relief our family is
entitled to recover from defendant Stamford under the Second Circuit’s remand order, and other

1 Significantly, defendant does not admit to any pendency obligation, in any amount. Nevertheless, I invite
Stamford to contact me to discuss the prospect of settling and compromising the outstanding pendency issue.
1

Case 3:ll-cv-01018-WWE Document 103 Filed 11/21/16 Page 2 of 11

instructive authorities. The Second Circuit’s ruling regarding Stamford’s “obligation to fund”
pendency is now “law of the case”:
“The Board only agreed to fund T.D.’s home program on a
temporary basis; but, because “the Board’s obligation to fund stayput placement is rooted in statute, not contract.” the parties’ intent
as to the duration of T.D.’s home program does not alter the
Board’s reimbursement obligation under the f20 U.S.C. S 1415(iYl
Stav-put provision.”

(Emphasis added)
3.

As I shall now show, our family paid out or incurred debt aggregating in excess of

$45,000 (Exhibit A) as well as $10,419.19 in transportation costs at the IRS rate (Exhibit B) to
the extent not already covered by insurance) in an effort to provide the pendency services that
our son was entitled to receive (ABA, Speech, Occupational Therapy and Autism Consulting
Services). Stamford, however, never funded these services, thereby preventing our family from
recirculating what little funds we then had to continue to pay for our son’s pendency services. As
a result, as T.D.’s mother, I was forced to directly provide a portion of T.D.’s ABA services after
receiving training in Applied Behavioral Analysis (ABA) from Lucinda Ribeiro, an ABA
therapist and New York State Certified Special Education Teacher, and from Dr. Carol Fiorile,
BCBA-D, who holds a Ph.D. in ABA as well as a doctoral level board certification in ABA. (See
Exhibit C). Both Ms. Ribeiro and Dr. Fiorile were hand picked and compensated by Stamford so
there should be no question as to their expertise.
4.

As I shall now show, and as the Second Circuit has already explained and ruled,

T.D.’s statutory pendency entitlement did not come to an end in 2010, as Stamford contends. In
addition, while we certainly hope to recover and be “reimbursed” for the monies we have paid
out of pocket, we also are asking the Court to provide additional “funding” relief to allow us to
finally pay our still unpaid invoices and to provide an award of compensatory relief that we
2

Case 3:ll-cv-01018-WWE Document 103 Filed 11/21/16 Page 3 of 11

believe is warranted given defendant’s failure to abide by the automatic and unconditional
pendency entitlement, for a period of almost six years. Otherwise, Stamford will have been
unjustly enriched by our son T.D. being unjustly denied his pendency entitlements and services
that he clearly would have fully received had the Stamford school district provided that funding
all along. This Court is empowered to award appropriate relief without a hearing, but if the
Court believes that a hearing (or a mediation) is needed or warranted, plaintiffs are ready to
proceed as the Court may direct.
The Statutory Right of “Pendency”
5.

The IDEA statute requires that a student remain in his or her last agreed-upon

program during judicial proceedings.

It is the school district’s statutory responsibility to

maintain a student’s pendency placement. 20U.S.C. § 1415(j) provides:
[Djuring the pendency of any proceedings conducted pursuant to
this section, unless the State or local educational agency and the
parents otherwise agree, the child shall remain in the then-current
educational placement of the child, or, if applying for initial
admission to a public school, shall, with the consent of the parents,
be placed in the public school program until all such proceedings
have been completed.
6.

In contrast to Burlington/Carter reimbursement relief (which must be won after

first meeting a three-prong evidentiary test “on the merits”), pendency relief is considered an
automatic and unconditional injunction. See, e.g., Honig v. Doe, 484 U.S. 305 (1988), T.M. v.
Cornwall Cent. Sch. Dist., 752 F.3d 145 (2d Cir. 2014), StudentXv. N.Y.C. Dep’tofEduc., 2008
WL 4890440 (E.D.N.Y Oct. 30, 2008), N.Y.C. Dep’t of Educ. v. S.S., No. 09 Civ. 810 (CM)
2010 U.S. Dist. LEXIS 25133 at *38 (S.D.N.Y. Mar. 17, 2010). Pendency has the effect of an
automatic and unconditional injunction, which is applied without regard to such factors as
irreparable harm, likelihood of success on the merits, the conduct of the parties, or a balancing of
3

Case 3:ll-cv-01018-WWE Document 103 Filed 11/21/16 Page 4 of 11

the hardships. Zvi v. Ambach, 694 F.2d 904 (2d Cir. 1982); see also 20 U.S.C. § 1415(j);
Drinker v. Colonial Sch. Dist., 78 F.3d 859 (3d Cir. 1996) (holding that the pendency/stay-put
provision “represents Congress’ policy choice that all handicapped children, regardless of
whether their case is meritorious or not, are to remain in their current educational placement until
the dispute with regard to their placement is ultimately resolved”).
7.

The purpose of the pendency provision is to provide stability and consistency in

the education of a student with a disability. Honig. However, in stark contrast to some of
Stamford’s arguments, fulfilling pendency does not mean that a student must be in or remain in
or transfer to a particular school site or location. Concerned Parents & Citizens for the
Continuing Educ. Of Malcolm X. v. NY. City Bd. OfEduc., 629 F.2d 751 (2d Cir. 1980). The
statutory pendency entitlement is service-oriented, rather than placement oriented. The U.S.
Dept. ofEduc. Office of Special Education Program (“OSEP”) has opined that a student’s thencurrent placement would “generally be taken to mean current special education and related
services provided in accordance with child’s most recent [IEP]” Letter to Baugh, 211 IDELR
481 (OSEP 1987) (emphasis added.)
8.

As I had previously argued, and as the Second Circuit has now ruled, T.D.’s stay-

put “funding” entitlement ($2,500 per week) is based upon the parties’ November 6, 2009
stipulation (Exhibit D). The stipulation of settlement, executed on November 6, 2009, expressly
provides for a $2,500 per week”pendency funding” amount:
• The Board agrees to reimburse the Parents in the amount of $2,500 per week for the cost
of speech, occupational therapy and ABA services and autism consulting services
provided to the Student from September 2009 through the development and
implementation of the Student’s IEP (at the January, 2010 PPT meeting). [It is the
parties’ agreement that the Student will be transitioned no later than February 2010
unless the Independent Consultants recommend a different time frame, provided that the

4

Case 3:ll-cv-01018-WWE Document 103 Filed 11/21/16 Page 5 of 11

Student must be transitioned from the home-based program during the 2009-2010 school
year.]2
•

Reimbursement for payment shall be made within forty-five (45) days of the Board’s
receipt of documentation of payments (invoices and cancelled check(s)) made by the
parents for related services provided to the student between September 2009 and the
implementation of the Student’s IEP.

•

The Board will further reimburse the Parents for their provision of transportation of the
Student to and from his sessions with providers from September 2009 through the
development and implementation of the Student’s IEP based on the applicable IRS
mileage rate, upon receipt of documentation of the Student’s attendance at these sessions
during that period.

•

These payments are being made in full and final settlement of all fees, costs and/or
damages for any claim relating to the Student’s educational program, including
compensatory education, through the 2009-2010 school year including the extended
school year.
9.

Stamford, at pages 5-7 of its brief, argues that the core pendency entitlement, i.e.

$2,500 funding per week, is limited in time and that, in addition, plaintiffs’ conduct frustrated the
intent of the parties regarding the anticipated transition of T.D. to Stamford’s proposed program.
Plaintiffs respectfully beg to differ. In light of the Second Circuit’s Decision, it already is the law
of this case that:
“The Board only agreed to fund T.D.’s home program on a
temporary basis; but, because “the Board’s obligation to fund stayput placement is rooted in statute, not contract,” the parties’ intent
as to the duration of T.D.’s home program does not alter the
Board’s reimbursement obligation under the [statutory] Stay-put
provision.”
10.

The Second Circuit certainly made adverse findings against us, holding that the

hearing officer had made findings that had doomed our underlying claims. These matters,
however, went to the merits of our case.

Stamford is conflating the three prong

2 The Second Circuit held that any “contractual” intent to terminate the pendency funding benefit by a certain date or
event is not controlling because the pendency right is “rooted in statute” rather than in contract.
5

Case 3:ll-cv-01018-WWE Document 103 Filed 11/21/16 Page 6 of 11

Burlington/Carter test for reimbursement (on the merits) with the automatic and unconditional
statutory right of pendency.
11.

We clearly lost our case on the merits. We thus have no entitlement to any relief

except to the extent that such relief arises out of T.D.’s automatic and unconditional statutory
pendency entitlements. The existence of and need to ascertain the scope of such relief is why the
Second Circuit directed this remand.
To Accord T.D. the Pendency “Fundi ng” Relief to Which T.D. is Entitled And Prevent a
Windfall For Stamford. Plaintiffs Should Not Be Penalized For Being Unable to Fully Afford to
Continue to Fund Private Providers for T.D.’s Home Program Or For Providing Direcl ABA
Services To T.D.
12.

At page 11 and 12, Stamford advances the argument that we unilaterally

“changed” T.D.’s program during the time frame of pendency and, as such, plaintiffs should be
denied pendency funding relief altogether. Plaintiffs would urge, however, that Stamford is
unfairly attempting to convert the unconditional pendency entitlement to one that is saddled with
conditions. Stamford’s “change” argument is thus irrelevant.
13.

The stipulation of settlement did not require us to conform to a particular program

to recover the $2,500.00 in funding per week. So long as the pendency services fell under the
enumerated categories, we could receive funding for $2,500.00 weekly. This is yet another
example of Stamford’s overreaching to try to convert an unconditional right into a conditional
right. We are confident that this Court will see through such overreaching.
14.

Danger invites rescue. Due to the district’s continued failure to fund T.D.’s home

program and our limited financial resources, I had no alternative but to seek ABA training and
provide T.D. with some ABA services myself. T.D. could not be without support and services,
which the district was fully aware of. When an appropriate placement was not offered and

6

Case 3:ll-cv-01018-WWE Document 103 Filed 11/21/16 Page 7 of 11

provided, I had no other recourse but to provide T.D. some of the services myself. I simply
could not afford to continue to pay for his home provider team.
15.

The Second Circuit has found that this kind of situation to be unjust in Doe v.

East Lyme Bd. OfEduc., 790 F.3d 440 (2d Cir. 2015). The Court ruled that the right to stay-put
(pendency) is not means tested:
On the other hand, if the parent cannot afford to finance all or any
services, the agency gets to pay less than what it should have, or
nothing—and, more importantly, less than what was needed for the
child’s benefit. Moreover, such an arrangement would make the
stay-put obligation contingent on the means of a child’s family - a
legally irrelevant variable.
790 F.3d at 456. Stamford is trying to have its cake and eat it too. Had we had ongoing
pendency funding from Stamford, we would have had the means to continue with T.D.’s private
providers and I would not have had serve as my son’s service provider.
16.

Stamford thus fails to account for the value of any of my time providing ABA

services to T.D. following the training that I had received. Because of Stamford’s failure to
provide for pendency funding, I took on the role of being T.D.’s primary service provider for
years. (Exhibit E) Given the intensity of the services that were needed, I have valued my time at
$50-$70 per hour (far less than what a BCBA would have charged). I respectfully ask this Court
to award me a “reasonable amount” for my services based on the precedent of the cases
described below.
17.

A private service for a student is not required to meet the same stringent public

school requirements for “qualified personnel” where, as here, there has been a failure to provide
home services. Bucks Cty. Dep't ofMental Health/Mental Retardation v. Pennsylvania, 379 F.3d
61, 70 (3d Cir. 2004); See also Hurry v. Jones, 734 F.2d 879 (1st Cir. 1984). In Bucks, more than
a decade ago, a parent just like me was awarded compensation for the therapeutic services she
7

Case 3:ll-cv-01018-WWE Document 103 Filed 11/21/16 Page 8 of 11

had directly provided to her daughter at the (then) rate of $22 per hour. Due to the pendency
failure by the Stamford school district, I “stepped into the shoes of a therapist, ultimately acting
over and above what is expected of parents under IDEA.” Bucks at 73. See also Hurry v. Jones,
734 F.2d 879 (1st Cir. 1984).
18.

The Second Circuit repeatedly focused on pendency “funding.” Pendency funding

here should thus not be strictly limited to “reimbursement” relief. This Court has broad
discretion under 20 U.S.C. § 1415 to award “appropriate” pendency relief, which may include
not only reimbursement and compensatory education, but also direct funding of those services
for which we have invoices. See Connors v. Mills, 34 F. Supp. 2d 795 (N.D.N.Y. 1998). My
request also follows the reasoning of the Second Circuit in Doe, as it is contrary to logic and
public policy, not to mention manifestly unfair and meanspirited, to argue that when a parent is
unable to afford to prepay for pendency services, they are then denied the right to pendency
funding.
19.

To the extent that the Stamford school district is arguing that plaintiffs should be

denied reimbursement or other funding relief because plaintiffs failed to fulfill a “reimbursement
model,” we submit our supporting invoices and payment for the program (Exhibit A), mid
respectfully urge this court to follow the Bucks, Hurry and Doe Courts and grant us funding for
the additional pendency services I provided directly mid compensatory services for the services
that T.D. was entitled to but I was financially not able to provide.
20.

To the extent that Stamford failed to provide the $2,500 pendency benefit from

November 18, 2010 to August 4, 2016 (a total of 298 weeks), this Court’s pendency “funding”
discretion extends to $745,000, i.e. $2,500 x 298 weeks. If this remand proceeding cannot be
settled and compromised amicably by the parties (which is our hope), we respectfully ask this

8

Case 3:ll-cv-01018-WWE Document 103 Filed 11/21/16 Page 9 of 11

Court to award the full amount of its pendency funding discretion or, in the alternative, such
lesser amount as this Court believes is warranted under the circumstances.
Stamford Is Improperly Attempting to Make Conditional What is an Automatic and
Unconditional Right
21.

Stamford continues to attack and deny its stay-put obligations by trying to cast

blame on plaintiffs for any delay. Stamford urges that plaintiffs prevented the development of
the IEP and failed to meet other conditions of the settlement. The Second Circuit’s remand order
effectively disallows this argument. Pendency was invoked when we filed our demand for due
process, and it did not end until August 4, 2016 when the Second Circuit’s mandate issued.
22.

Stamford attempts to limit funding under our son’s automatic and unconditional

right by imposing the following conditions:
a.

“To the extent that the total value of the home program was increased by
the Parents* obstructionist and dilatory actions, the Board should not be
burdened with such costs.” (Doc. 100 at p. 6)

b. “Extended School Year periods (“ESY”) should not be included in the
Court’s total value of the home program as specified in the Settlement
Agreement. This is because ESY’s were not contained or addressed
anywhere in the Settlement Agreement.” (Doc. 100 at p. 8)
c. Reimbursement should be denied for a ten-week period where the School
District provided “community based services.” (Doc. 100 at p. 9)
d. “Periods in which the Student was not enrolled in the Board’s school
system or was home schooled should also be excluded from the Court’s
calculation for reimbursement.” (Doc. 100 at p. 11)
23.

Plaintiffs beg to differ with Stamford, not because we wish to be argumentative,

but because the Second Circuit’s remand and ruling constitutes the “law of this case” that estops
Stamford from making any argument that T.D.’s statutory pendency right was limited by the
parties’ alleged contractual intent. The Second Circuit expressly stated:
“The Board only agreed to fund T.D.’s home program on a
temporary basis; but, because “the Board’s obligation to fund stay9

Case 3:ll-cv-01018-WWE Document 103 Filed 11/21/16 Page 10 of 11

put placement is rooted in statute, not contract,” the parties’ intent
as to the duration of T.D.’s home program does not alter the
Board’s reimbursement obligation under the Stay-put provision.”
(emphasis added) Moreover, T.D. was never withdrawn from the Stamford
system. He has been an active and registered Stamford student throughout.
24.

Given the Second Circuit’s ruling and the unconditional right to pendency, it is

error for Stamford to make the argument that the pendency was somehow limited or excused by
actions that, at best, went ultimately to the merits of the case. If Stamford had an issue with the
remand order, Stamford should have tried to appeal that ruling to the United States Supreme
Court (an opportunity that has apparently long since passed).
25.

Pendency is an automatic and unconditional right and continues until the end of

the proceeding. Pendency is not allowed to take a summer vacation. See T.M. v. Cornwall Cent.
Sch. Dist., 752 F.3d 145 (2d Cir. 2014). The very idea that a severely autistic child would not be
entitled to summer programming is simply unthinkable. Once again, Stamford is trying to evade
its obligation to fund T.D.’s stay-put program, but as the Second Circuit ruled, there are no
contractual, intent related limitations. The established time frame for pendency funding is thus
November 18, 2010 to and including August 4, 2016.
26.

There is nothing that would suspend the performance of the funding terms of the

settlement agreement during the period of April 2013 to June 18, 2013. More importantly, as a
matter of law, the parties’ express intention in the agreement is not controlling and the $2,500
funding benefit continues uninterrupted through 2016.
27.

The Stamford school district fails to take into account that it was left up to my

husband and I, as T.D.’s parents, to determine the program mix for T.D, as long as it contained
ABA, OT, ST or ABA consulting. We did not have the same requirement to meet curriculum
standards that would be required “on the merits” in a school setting. The Stamford district left
10

Case 3:ll-cv-01018-WWE Document 103 Filed 11/21/16 Page 11 of 11

the programming up to us, and they were required to pay the $2,500 per week to fund these
services. We did the best we could.
28.

Stamford continues to urge that the kinds of conditions that must be proven to

secure Burlington/Carter reimbursement relief on the merits should be applied to pendency relief
that, in actuality, is automatic and unconditional and is not saddled with contractual conditions
having to do with the parties’ contractual intent.
Conclusion
29.

We are not here seeking to relitigate the fact that the Second Circuit ruled against

us on the merits and that as part of the merits analysis, all three judicial forums found that that
we were in some way blameworthy for certain of our acts and omissions. While this has formed
the basis for why we lost the case, the Second Circuit’s remand order makes clear that we did not
lose the right to ($2500 per week) funding under pendency; an automatic and unconditional
right.

jfrf kfJti /) 11"\lkfh (
Shkelqesa Dervishi
Sworn to before me this
Q.\sf day ofNoven:rtWrj2016
Notary Public
MAUTOCIO J. BERTONE JR.
NotyPriic, State of New \tofk
No. 01BB6309117
Quaffed in RocHand Couiy
Commission Expires August 4,201$

11

APPENDIX F
l

Case3:ll-cv-01018-MPS Document 142 Filed05/31/17 Page lot 7

FILED

UNITED STATES DISTRICT COURT
DISTRICT OF CONNECTICUT
Shkelqesa Dervishi on behalf of her
Handicap minor child T.D.
Plaintiff,

2011 HAY 31 PfcUO
CIVIL ACTION
3:11-CV-1018-0

.DISTRICT CCUL;
fllDGEPORTCF

V.

Stamford Board of Education,
Defendant

May 18,2017

PLAINTIFF’S POST-REMAND MEMORANDUM OF LAW
This memorandum of law and the affidavits previously filed by me are respectfully
submitted on behalf of my minor disabled son, T.D., in support of our application to ascertain,
fix and recover from defendant

. .the value of the home-based services that were the stay-put

[pendency] educational program for the plaintiff at the time that due process commenced in
November of 2010... through the conclusion of the court of appeals proceedings.” (3/16/17 Tr.
Pp. 3-4)
Pendency is an automatic and unconditional entitlement. 20 U.S.C. §1415 (j); Honigv.
Doe, 484 U.S. 305 (1988); T.M. ex rel AM. v. Cornwall Central Sch. Dist., 752 F.3d 145 (2d
Cir. 2014). As the Second Circuit ruled in directing this remand: “On remand, the district court
should (i) calculate the total value of the home program, as specified in the settlement agreement,
for the period from November 18,2010 until the dispute over the 2010-2011IEP is no longer
pending, and (ii) order the Board to pay that amount to [plaintiff].” (See Second Circuit’s August
4,2016 Summary Order).
The Second Circuit’s directive is simple and clear - calculate the value of the home
program and order defendant to pay that amount to plaintiff. The Second Circuit did not direct
this Court and the parties to explore or recognize any offsets based upon defendant’s “blame the

Case 3:ll-cv-01018-MPS Document 142 Filed 05/31/17 Page 2 of 7

victim” approach—an approach designed to give defendant a windfall and evade the Second
Circuit’s directives. To the extent that this Court gives any consideration to defendant’s
unfounded attempt to turn an automatic and unconditional right into a conditional right, my
Rebuttal Affidavit and testimony at the remand hearing respond to defendant’s relentless
personal attacks.
As pendency is an automatic and unconditional right, and as the Second Circuit
delineated the scope of the remand to fix and pay the value of T.D.’s pendency program, this
Court should ignore as unfounded and irrelevant defendant’s repeated attempts to portray me as
uncooperative or unreasonable. This Court should deny defendant the windfall that it seeks and
fairly compensate me for the value of T.D.’s pendency program. Period.
As I urged on the first day of hearing, the relevant time period is approximately 298
weeks and those weeks should be multiplied by the value of T.D.’s home program (as specified
in the settlement agreement), given that defendant refused to fund the pendency program or
reimburse plaintiff for such costs. (3/16/17 Tr. P. 7) By and refusing failing to repay these
monies to me, I was prevented from recirculating what little money I had to fund T.D.’s services.
(Id. At p. 8) For this reason, I had no choice but to “step in” to provide some of T.D.’s
pendency services directly. (Id. At 8-9). I had training and did so under supervision. (Id. at p.
10) In this connection, to the extent that I performed direct pendency services, I requests that I be
compensated at the rate of at least $50 per hour i.e. “far less than what a therapist would have
charged.” (Id. at p. 11) I also should be compensated for the value of my time in performing the
transportation function under pendency. (Id. at p. 12)
Accordingly, as discussed below and as the evidence at the remand hearing demonstrated.
the “value” of T.D/s stay-nut services should be calculated and credited tome not only for the

2

Case 3:ll-cv-01018-MPS Document 142 Filed 05/31/17 Page 3 of 7

value of the actual funds that I advanced, but also for the reasonable value of the pendency
related services directly performed and provided bv me where, as here. 1 did not have the
financial resources to fully pav lor T.D.’s pendency services.
There is legal authority for this Court to award such relief where, as here, a parent has
advanced funds and performed services that, by all rights and statutory entitlements (20 U.S.C.
Sec. 1415(j)) the local school district should have itself advanced and performed. Student X. v.
New York City Dep’t ofEduc., 2008 U.S. Dist. LEXIS 88163,2008 WL 4890440 (E.D.N.Y. Oct
30,2008); Hurry v. Jones, 734 F.2d 879 (1st Cir. 1984); Bucks County Dept, ofMental
Health/Mental Retardation v. Commonwealth ofPennsylvania and Barbara DeMora, 379 F.3d
61(3d Cir. 2003).
The Testimony Given Bv Plaintiff At The Remand Hearing
At the hearing, I identified and explained the service invoices admitted into evidence as
Exhibit 1. (Id at pp. 28-29) Defendant refused to pay. (Id. at p. 29) I testified about the various
services that were rendered, and my own role. I testified that I paid out $43,563 as against the
service invoices. (Id. at p. 65) I also broke down the requested transportation relief. (Exhibit
2)(Id. at p. 66) I am requesting a total of $10,419 for discharging the transportation function. (Id.
at 69-73) Exhibit 23 is my recitation of work I directly performed for my son. (Id. at 107) I urge
that the settlement agreement is not controlling on the issue of whether I am entitled to be
compensated for my time in performing “stay put” work. I also explained that
I did not submit our invoices to defendant because Dr. Holland rejected any responsibility for
payment and explicitly instructed me not to do so. (Id. at 116) (See also 3/22/17 Tr. at 284) As
this Court will note, Dr. Holland did not refute my testimony on this point, not even at the final
March 29 hearing.

3

Case 3:ll-cv-01018-MPS Document 142 Filed 05/31/17 Page 4 of 7

I explained my justification in rejecting defendant’s August 2010IEP. (Id. at 79) I also
identified Exhibit 6 (canceled checks). I also explained that T.D. was acting “out of control” in
the house and refused to go to school. (Id. at 125) I thus explained how T.D. came to have a
home and community based program, and my ongoing saga of difficulties with the defendant.
I also explained that defendant had filed a DCF complaint against me, a complaint that did not
result in a finding of neglect. (Id. at 146) I submit that the DCF complaint was unfounded and
retaliatory.
I testified as to T.D.’s educational program at the not-for-profit Keswell School. (Id. at
153-55) I also spoke of the tutoring program at Pinnacle School and the time I spent working
with T.D. in a therapeutic fashion.
On March 22, 2017,1 presented testimony from T.D.’s providers (including training of
plaintiff and their supervision of plaintiff’s direct provision of services and the rendering of
invoices), as follows: Lucinda Ribeiro (3/22/17 Tr. Pp. 184-242), Dr. Stephanie Bader (Id. at pp.
242-260)

At the March 22 hearing, I testified that I hold a bachelor’s degree in accounting and
finance. (Id. at p. 268) When T.D. was diagnosed with autism, I was close to completing a
master’s program. (Id.) I explained at the remand hearing how I computed the service hours I
provided to T.D. (under supervision) for which I am requesting compensation, and the minimum
hourly rate being sought. (Tr. p. 325-336)(Exhibit 4a and 4b)
At the March 29 hearing, I cross-examined Dr. Wayne Holland and offered rebuttal
testimony. Despite the unconditional nature of the pendency entitlement, Dr. Holland attempted
to evade that right and turn it into a conditional entitlement by attempting to portray me as
uncooperative and unreasonable. He also attacked my training and qualifications to provide

4

Case 3:ll-cv-01018-MPS Document 142 Filed 05/31/17 Page 5 of 7

some of the ABA support to my son. (Tr. 612) As Dr. Holland admitted, Stamford will not pay a
dime for the services that I provided unless directed to do so by this Court. (Tr. at 439) Dr.
Holland also admitted that if he had received invoices after the date of the settlement agreement
he would have “returned them.” (Tr. 605) (See Exhibits 1 and 6)
Stamford changed T.D.’s placement during the stay put. (Tr. 543) I lost my employment
and transportation became a big problem. (Tr. 544) I requested the stay put services. (Tr. 57778) See also Exhibit 34. (Tr. 579-80) Dr. Holland, we submit, misstated the facts. (Tr. 613) See
Exhibit 35. Tr. 636-39. See also my rebuttal affidavit (in lieu of my in-court rebuttal of Dr.
Holland). (Tr. 655)
ARGUMENT
This court is empowered to compensate me for rendering transportation
AND THERAPEUTIC SERVICES TO T.D. THAT ARE WITHIN THE SCOPE OF T.D.’S STAYPUT “PENDENCY” PROGRAM

As I noted during my opening statement at the remand, there is legal authority to support
my claim that this Court should award plaintiff compensation (in addition to reimbursement
relief—See Exhibits 1 and 6)) for the transportation and therapeutic services that
I provided under supervision.
For example, in Hurry v. Jones, 734 F.2d 879 (1st Cir. 1984), the court held that parents
who were performing a transportation function that the school district should have performed
were entitled to reasonable compensation for their time and effort over and above their
reimbursable transportation-related expenses. The court affirmed an award of $4600. Here too, I
fulfilled a transportation function that defendant should have fulfilled.
Similarly, in the DeMora case, cited earlier, the Third Circuit held that where a parent
“stepped in” to provide the duties of a trained service provider, reimbursing the parent for her

5

Case 3:ll-cv-01018-MPS Document 142 Filed 05/31/17 Page 6 of 7

time spent in providing therapy constituted appropriate relief. In DeMora, involving hourly rates
from the 1990’s, Ms. DeMora’s time was reimbursed at the rate of $22 per hour. Here too, I
fulfilled a therapeutic function that defendant should have provided and I did so under training
and supervision. Here, more than a decade after the DeMora case was decided, I seek an hourly
rate of $50 and recognize that this Court has broad discretion to fix a different rate for my time to
prevent defendant from obtaining a windfall and to do justice.

CONCLUSION
This Court should award me the total “value” of T.D.’s pendency program by granting
appropriate reimbursement relief and paying me for the reasonable value of my time in
performing the transportation function and providing therapy services to T.D.

Dated: May 31,2017
Respectfully Submitted,

\JtWe.

Shkelqesa* Dervishi

6

/jQiAiCi' Chi'

APPENDIX G

Case 3:ll-cv*0i0l8-V=s ^Tor.Tisrc 132 Filed 04/17/17 Rage 25 o-f 53

/Autism
\TR£ATMENT Cesth.
X OF AMESIC^
April 12,2017
To Whom It May Concern,
i- '*;l

■<

i
a

This letter confirms that Keda Dervishi attended our in-depth weddong tmaisg cows,Tk:
Prognuri* Start-Up, during the week of September 19 - 24,2004.
Since 1983, The Son-Rise Program at the Autian Treatment Center of America* fee serwtfart’siif;
center to teadi parents end professional* to develop home-based programs be c&Uasi
needs. The Son-Rite Program hat two pnrposca: to individually design « program &r adflC “
needs and to train parents to develop and supervise an intensive home-bated peqpm
individual needs of each child. All parents and professionals receive extesratevitfvaar
methodology, enabling them to develop a program that is suited to (heir child’s
matter the child’s diagnosis, age or skill level. We work with children ead wkfeiwfaC;
program is designed accordingly.
During The Son-Rise Program Start-Up, parents receive approximately
training is comprehensive and ia die foundation upon which pspeora set sp ts£ sb s
Rise Program. Parents attend thia program without their childrmaadsfe
*at
drild-eare profiarionah. TUs training gives parents thetoob tad
Program to help ftdr child in areas such as language ecqttisidoc. extended
challenges, as well ss academic skills such as reading and wririsg, AdS&nBf, yearn
recruit and train a support team in order to have additional help ia
EC
child.
Enclosed you will find the schedule and outline of desses tettkAeaM
If yon have firrther questions concerning this matter pleax cefl sc
give to the continuation of this program will be of great
ao de ease Steratft
Sincerely,

u

Wendy LaRocque
Program Enrollment Department Supervisor
The Autism Treatment Center of America*

2080 S. Undermountain Road Sheffield, MA 01257-9643 USA
Telephone: (413) 229-2100 Pax: (413) 229-S030 Email
A nonprofit, federally tax-earn}* charitable organization. WWW.

j
i

A

'Shit
p

